<html>
<title> - NASA: HUMAN SPACE FLIGHT</title>
<body><pre>[Senate Hearing 108-837]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 108-837
 
                        NASA: HUMAN SPACE FLIGHT

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
97-061                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK LAUTENBERG, New Jersey

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 2, 2003....................................     1
Statement of Senator Breaux......................................     3
    Prepared statement...........................................     3
Statement of Senator Brownback...................................     1
Statement of Senator Nelson......................................    40

                               Witnesses

Chase, Brian E., Executive Director, National Space Society......    14
    Prepared statement...........................................    16
Roland, Alex, Professor of History, Duke University..............    18
    Prepared statement...........................................    20
    Article from Discover, dated November 1985, entitled The 
      Shuttle, Triumph or Turkey?................................    21
Smith, Marcia S., Resources, Science and Industry Division, 
  Congressional Research Service.................................     4
    Prepared statement...........................................     6


                        NASA: HUMAN SPACE FLIGHT

                              ----------                              


                        WEDNESDAY, APRIL 2, 2003

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. The hearing will come to order.
    Thank you all for joining us today. I think we'll be joined 
by some other members a little bit later on. There's a briefing 
going on right now by Secretary Rumsfeld that a number of 
people have gone over to, and I certainly don't blame them. I 
was tempted, myself, to postpone the hearing for an hour's 
period of time, but finding an hour during the day is just 
tough to find. I decided to go ahead and go forward with the 
hearing. I would anticipate we'll probably be joined by some 
other members here a little bit later on.
    America has consistently proven her leadership in space 
science and technology. Predominance of America in space came 
from the charge set forth by President Kennedy to land a man on 
the moon and return him safely to earth. The technological 
advances made during the Apollo era were a result of the U.S. 
space program pushing forward in human space exploration. 
Today, I hope to take a look back briefly at the recent history 
of human space exploration, specifically the Space Shuttle, as 
well as a look forward at what the vision of NASA should be.
    This is going to be one of a number of hearings that I 
anticipate we'll do in this Subcommittee looking at the future 
of NASA. Moving towards a reauthorization bill for NASA hasn't 
been done for now some 10 years. Through these hearings I hope 
to mold together an effective effort to move forward a 
reauthorization bill for NASA.
    Recently, the Shuttle has been a topic of many discussions 
and debates in the wake of the Columbia Shuttle disaster. As 
these debates continue, I hope we'll be able to add to that 
discussion today.
    In the wake of the Columbia tragedy and the decision to not 
replace Columbia, we must take a close look at our efforts in 
developing the next launch vehicle for NASA. It is imperative 
that we make our way to space and do so as quickly and as 
safely as possible. As tempting as it is to accelerate the 
process of developing our next launch vehicle, we must do so as 
safely as we possibly can.
    I cannot say right now whether more money is the answer to 
the problems NASA has encountered in their quest for a new 
launch vehicle. I fully intend to look at the budget of NASA 
and determine where they are hurting, where they are operating 
successfully, and where they are involved with projects that 
could be better accomplished by another agency or by the 
private sector. I certainly hope that today we can bring to 
light some of the issues behind the future of human space 
flight and help determine where NASA needs to go.
    When President Kennedy challenged America to send a man to 
the moon and return him safely to earth by the end of the 
decade, NASA was sent on a mission in which the only option for 
the outcome was success. It seems it is going to take that same 
kind of dedication and determination to successfully accomplish 
the next step in human space exploration.
    The future of the space program is also contingent upon the 
role that private businesses play in the process. As the 
government looks at ways to save costs, NASA will have to rely 
more heavily on private investment and commitments. Spurring 
competition within the private sector could reduce the pressure 
on NASA to accomplish everything in space. For example, Trans 
Orbital, a California company, is working on the first 
commercial project to the moon. They're calling it the 
Trailblazer. It is exactly what this country needs right now, 
someone or something to blaze the trails between the earth and 
the stars in human exploration.
    Currently, NASA and Russia are the only countries 
successfully launching humans into space. We are continually 
hearing comments by the Chinese and reports that, as early as 
October, they, too, will be launching its first astronaut into 
space. If China does become the third space-faring nation, we 
are faced with a more complicated and urgent matter here in 
America.
    Today, I hope to learn more about how NASA came to the 
decision of using the Shuttle and if the Shuttle is the best 
means of space transportation for the future. Additionally, I'd 
like our witnesses to comment on the role of human space 
exploration and the overall goals of NASA. Just a few weeks 
ago, members of NASA's Advisory Council announced their 
concerns that NASA's decision to build an orbital space plane 
lacks vision. I hope that today we can help determine what a 
vision for human space flight in the U.S. should look like and 
bring focus where we are currently lacking.
    In the days immediately following the Columbia tragedy, I 
stated that we needed to step back and take a close look at 
where NASA has been, where they are currently, and where they 
need to go in the future. That's exactly what we'll be 
discussing today.
    Marcia Smith, with the Congressional Research Service, will 
talk with us about the fundamental question of, how did we get 
here. That is, how did the U.S. get to the current point of 
using the Space Shuttle as our means of transportation to and 
from space. I welcome her to the Committee and her years of 
expertise in studying this issue.
    Mr. Brian Chase, with the National Space Society, will 
discuss access to space and human space flight initiatives 
related to new space transportation systems. Mr. Chase will lay 
out access to space as the most critical part of any space 
exploration effort. This is something that the founders of this 
organization, Dr. Von Braun, would agree with.
    And, finally, we'll hear from Dr. Alex Roland, a former 
NASA historian and current professor at Duke University. Dr. 
Roland will discuss the flaws of the current space program and 
present his recommendations on how NASA should proceed with 
space exploration.
    We look forward to hearing from all of our witnesses in 
this first hearing.
    Before we go there, I'd like to turn to my colleague from 
Louisiana, where I guess KU will be going, but Duke won't. I 
don't mean to rub it in, Dr. Roland. But to New Orleans on 
Saturday, we're excited about that. We normally lose to Duke, 
but we finally got over it this time.
    [Laughter.]
    Senator Breaux. Sure. Well, we welcome you to New Orleans, 
and the team, and wish you the very best. It's going to be a 
great event.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. I thank you for having this hearing. I 
think it's timely, and it's important. Hopefully, it will be 
very informative. I think this country is, indeed, at the 
crossroads of where we're going to be in the future with regard 
to exploration of space.
    There are many who look at the Space Shuttle's recent 
disaster as a reason to call for the termination of space 
exploration. I think that is not a correct conclusion, I think 
that we obviously need to find out what went wrong. I think 
NASA and the independent board are looking at that, will find 
out what happened, and take the necessary steps to correct it.
    We will explore space because it is there and because we 
learn a lot and develop new technology from those efforts, 
which benefit all of us in ways that we could only dream of a 
couple of generations ago.
    I do think that it's important to have this opportunity to 
assess where we are, where we're going to be, and what needs to 
be done. I have no doubt that all the workers and the thousands 
of employees and contractors that are all part of what we call 
space exploration will continue to do a remarkable job.
    I look forward to the witnesses' testimony.
    [The prepared statement of Senator Breaux follows:]

 Prepared Statement of Hon. John B. Breaux, U.S. Senator from Louisiana

    Mr. Chairman, as Ranking Member of the Subcommittee on Science, 
Technology, and Space, I look forward to working with you this 
Congress, particularly as the Subcommittee examines issues related to 
the Space Shuttle Columbia tragedy, NASA, and the future of space 
flight.
    Today, we are at a critical juncture for manned space flight, and 
perhaps a turning point in its history. I am a strong supporter of 
human space flight and of the thousands of workers who enable it. Their 
efforts have taken us to the very edge of what was dreamed possible 
forty years ago, and to the doorstep of a new era of exploration and 
development. I have no doubt that the United States will continue to 
send people to space. However, we must do so with a full acknowledgment 
of the risks, a commitment to continue to minimize those risks, and a 
vision for what humans can and should aim to accomplish in space.
    The discussion about the future of space which we are beginning 
today will not come to focus solely on Columbia and its loss. The 
future of the Space Shuttle has broad implications for the 
International Space Station--a program in which the United States and 
its International partners have already made a significant investment. 
Without the Shuttle, it will be difficult to keep the Station fully 
supplied and further construction will be halted.
    We see and applaud NASA's actions to recover the space agenda. Even 
as the Columbia Accident Investigation Board continues its work on the 
causes of the accident, NASA has begun to plan for the Shuttle's return 
to flight. And there are discussions underway among the international 
partners, too, on the use and servicing of the Space Station for the 
foreseeable future. We judge these to be prudent and necessary actions. 
In addition, and now in parallel to the Columbia investigation, last 
fall NASA instituted a Service Life Extension Program (SLEP) plan to 
assure the long term future of the Space Shuttle. This newly 
implemented annual planning process culminated in a SLEP summit a few 
weeks ago at which NASA and its human spaceflight stakeholders 
identified a series of proposed initiatives that they deemed necessary 
to ensure the Shuttle's ability to effectively support the 
International Space Station. Finally, this team of senior NASA and 
industry managers also defined the criteria to be used by the NASA 
leadership to evaluate the proposed programs and make investment 
decisions and recommendations necessary to assure the long term 
viability of the Shuttle.
    When the results of the investigation are known, NASA will make any 
modifications needed to make the Shuttle safer and will consider how it 
will proceed to complete the assembly and support the crew and 
logistics needs of the International Space Station. In the mean time, 
the Agency will need to retain the critical skills of the current 
Shuttle and Space Station workforces, both inside and outside the 
agency. For thirty years, these workers have been a critical part of 
NASA's successes, and they will be needed for the continued success of 
the human space flight program.
    In addition, we must begin planning for a time beyond the current 
era of the Space Shuttle and Space Station. Although the answer to the 
question, ``Why fly humans in space?'' may have required no better 
response than, ``Because it is there'', the loss of Columbia chastens 
each of us to ask the harder questions before us: ``At what risk, 
towards what ends, and in what time frame can we do it safely and 
securely.'' Mr. Chairman, I thank you for convening this first of many 
discussions this Committee will have on this subject over the coming 
year, and I hope that today's discussion can begin to lay out the 
agenda we need to pursue in examining these questions.

    Senator Brownback. Thank you, Senator Breaux.
    First will be Ms. Marcia Smith, specialist in aerospace 
technology policy from the Congressional Research Service. The 
floor is yours. Welcome.

 STATEMENT OF MARCIA S. SMITH, RESOURCES, SCIENCE AND INDUSTRY 
            DIVISION, CONGRESSIONAL RESEARCH SERVICE

    Ms. Smith. Mr. Chairman, Senator Breaux, thank you for 
inviting me here today to discuss the history of the human 
space flight program in the context of the Space Shuttle 
Columbia accident. I ask that my written statement be made part 
of the record.
    Senator Brownback. Without objection.
    Ms. Smith. You asked that I address the fundamental 
question of how did we get here. The answer has two components. 
Why does the United States have a human space flight program? 
And why did we decide to build the Space Shuttle?
    Senator Brownback. Ms. Smith, pull that microphone up a 
little closer to you, if you would. Thanks.
    Ms. Smith. The dream of people journeying into space has 
been the lore of science fiction for centuries. By the time 
Sputnik 1 ushered in the space age in 1957, a cadre of 
enthusiasts was ready to make such dreams a reality.
    Congress passed the National Aeronautics and Space Act in 
1958, creating NASA and establishing as one objective the 
``preservation of the role of the United States as a leader in 
. . . space science and technology.''
    In 1959, NASA selected the first group of astronauts, the 
Mercury 7. Two years later, the first human orbited the earth.
    But it was not one of the Mercury 7; instead it was a 
Soviet cosmonaut, Yuri Gagarin. Gagarin's flight added new 
impetus to the U.S. program. America's leadership in space 
science and technology, its international prestige, and, many 
believed, its national security, were at stake.
    Three weeks later, Alan Shepard became the first American 
in space, but it was a suborbital flight. The United States did 
not match Gagarin's feat until 10 months later, when John Glenn 
became the first American in orbit.
    The risks were high in those early flights, yet the Nation 
was willing to accept those risks, and pay the costs, to ensure 
American preeminence. Indeed, only 3 weeks after Alan Shepard's 
flight, President Kennedy called on the nation to commit itself 
to the goal of landing a man on the moon by the end of the 
decade, and the Nation said yes. Although the space program has 
changed in many ways since then, human space flight as an 
indicator of technological preeminence appears to remain a 
strong factor in its support.
    And there are other reasons. President George H. W. Bush, 
the first President Bush, may have articulated them best in 
July 1989, when, on the 20th anniversary of the first Apollo 
lunar landing, he announced a commitment to returning humans to 
the moon and going on to Mars. He said, ``Why the moon? Why 
Mars? Because it is humanity's destiny to strive, to seek, to 
find, and because it is America's destiny to lead.''
    That is not to say that human space flight is without 
controversy. The debate over the need to send humans into space 
is as old as the space program itself. And over the past 42 
years, little progress seems to have been made in bridging the 
divide between those who believe human space flight is 
essential, and those who believe it is a waste of money and an 
unnecessary risk to human life. Since your other witnesses here 
this afternoon are going debate that topic, I will not.
    Suffice it to say that, to date, the United States and 
other countries have decided that human space flight is worth 
the costs and the risks. Representatives of 31 countries have 
traveled into space over the past 42 years on American and 
Russian spacecraft. And later this year, China is expected to 
launch its own astronaut into space for the first time.
    The next question is, why the Shuttle?
    As 1969 dawned and the first Apollo lunar landing neared, 
President Nixon took office and faced the question of what 
goals should guide the space program in the post-Apollo years. 
He established a Space Task Group chaired by Vice President 
Agnew that developed a plan to build a space station, a 
reusable space transportation system to service it, and to send 
humans to Mars.
    But after America won the moon race, support for expensive 
human space missions waned. NASA found that it had to pick just 
one of those new projects. It chose the reusable space 
transportation system--the Space Shuttle. One goal of the 
Shuttle program was to significantly reduce the cost of 
launching people and cargo into space.
    The reusable Space Shuttle was intended to replace all 
other U.S. launch vehicles, so-called ``expendable launch 
vehicles'' that can only be used once. By transferring all 
space traffic to the Shuttle, NASA projected that the Shuttle's 
development and operations costs would be amortized over a 
large number of launches, 48 per year, with resulting cost 
efficiencies.
    Senator Brownback. How many per year?
    Ms. Smith. Forty eight.
    Senator Brownback. Per year?
    Ms. Smith. Per year.
    Dr. Roland. At one time, they said 60.
    Ms. Smith. That premise has not held true, however. The 
costs were higher, and the flight rate lower. Today, many point 
to the Shuttle as a technical success but an economic failure.
    NASA has initiated several attempts to develop successors 
to the Shuttle, with the continued goal of reducing costs. Each 
attempt has failed in turn, in large part because anticipated 
technological advances did not materialize. Late last year, 
NASA announced that it would continue operating the Shuttle 
until at least 2015 and perhaps 2020 or longer. Despite the 
Columbia tragedy, NASA officials have made clear that plan is 
unchanged.
    Congress is now again assessing the costs and benefits of 
human space flight. Based on past experience, many expect that 
the decision will be made to continue the human space flight 
program essentially unchanged once the cause of the Columbia 
accident is determined and fixed; but there are a number of 
options to consider, from returning the Shuttle to flight as 
soon as possible to terminating the human space flight program 
entirely. I summarize those options in my written statement and 
would be happy to discuss them with you if you wish.
    Thank you, and I'd be happy to answer any questions that 
you have.
    [The prepared statement of Ms. Smith follows:]

Prepared Statement of Marcia S. Smith, Resources, Science and Industry 
                Division, Congressional Research Service

    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me here today to discuss the history of the human space flight program 
in the context of the Space Shuttle Columbia accident. You asked that I 
address the fundamental question of ``How did we get here?'' The answer 
has two components: Why does the United States have a human space 
flight program, and why did we decide to build the Space Shuttle? These 
are complex issues and my brief statement cannot do them justice. But I 
will try to provide an overview of some of the factors that shaped 
those decisions in the past, and summarize options as you reassess 
those decisions for the future.
Why Human Space Flight?
    The dream of people journeying into space was the lore of science 
fiction for centuries. By the time Sputnik 1 ushered in the Space Age 
on October 4, 1957, a cadre of enthusiasts was ready to make such 
dreams a reality.
    Congress passed the National Aeronautics and Space Act in July 
1958, creating NASA and establishing as one objective ``the 
preservation of the role of the United States as a leader in 
aeronautical and space science and technology and in the application 
thereof to the conduct of peaceful activities within and outside the 
atmosphere.'' NASA opened its doors on October 1, 1958, and 6 months 
later the first group of astronauts--the Mercury 7--was selected.
    Two years later, on April 12, 1961, the first human orbited the 
Earth. But it was not one of the Mercury 7. Instead, it was a Soviet 
cosmonaut, Yuri Gagarin.
    Gagarin's flight added new impetus to the U.S. program. America's 
leadership in space science and technology, its international prestige, 
and, many believed, its national security, were at stake. Three weeks 
later, Alan Shepherd became the first American in space, but it was a 
suborbital flight. The United States did not match Gagarin's feat until 
10 months later, when John Glenn became the first American in orbit.
    The risks were high in those early flights. We had little 
experience with launching rockets into space, and with the spacecraft 
that protected the astronauts. Yet the nation was willing to accept 
those risks, and pay the cost, to ensure American preeminence. Indeed, 
only three weeks after Alan Shepard's flight, President Kennedy called 
on the nation to commit to the goal of landing a man on the Moon by the 
end of the decade, and the nation said yes. Although the space program 
has changed in many ways over the past four decades, human space flight 
as an indicator of technological preeminence appears to remain a strong 
factor.
    Human space flight is risky. It has claimed the lives of 17 
American astronauts and four Russian cosmonauts in spaceflight-related 
accidents so far. \1\ While this is a relatively small percentage of 
the more than 400 people who have made space journeys, their loss is 
felt deeply. Human space flight also is quite expensive. NASA will 
spend about $6 billion on the Space Shuttle and Space Station programs 
in this fiscal year. Yet we persevere. President George H.W. Bush 
articulated what many consider a guiding impetus. In July 1989, on the 
20th anniversary of the first Apollo lunar landing, he stood on the 
steps of the National Air and Space Museum and announced a commitment 
to returning humans to the Moon, and going on to Mars. He said:
---------------------------------------------------------------------------
    \1\ The 17 American astronaut spaceflight-related fatalities 
counted here include the three Apollo 204 astronauts who were killed in 
a pre-launch test in 1967. Some sources exclude these astronauts 
because they were not killed in an actual spaceflight. The table at the 
end of this statement provides more information on the space tragedies 
that ended in death: the 1967 Apollo fire (3 deaths), the 1967 Soyuz 1 
mission (one), the 1971 Soyuz 11 mission (three), the 1986 Space 
Shuttle Challenger accident (seven), and the 2003 Space Shuttle 
Columbia accident (seven). The Columbia accident is also discussed in 
CRS Report RS21408 and CRS Issue Brief IB93062.

        Why the Moon? Why Mars? Because it is humanity's destiny to 
        strive, to seek, to find, and because it is America's destiny 
---------------------------------------------------------------------------
        to lead.

    That is not to say that human space flight is without controversy. 
The debate over the need to send humans into space is as old as the 
space program itself. Over the past 42 years, little progress seems to 
have been made in bridging the divide between those who believe human 
space flight is essential, and those who believe it is a waste of money 
and an unnecessary risk to human life. The Senate Committee on 
Aeronautical and Space Sciences--the predecessor to this Subcommittee--
held hearings on that debate forty years ago, and little has changed. I 
know your other witnesses today will resume that dialogue, so I will 
not devote much of my statement to it. Briefly, critics of human space 
flight believe that robotic probes can gather the needed scientific 
data at much less cost, and that humans contribute little to space-
based scientific research. They point out that no ground-breaking 
scientific discoveries have emerged from 42 years of human space flight 
that can be uniquely attributed to the presence of humans in space. 
Proponents insist that human ingenuity and adaptability are essential 
for some types of basic research in space, and can rescue an otherwise 
doomed mission by recognizing and correcting problems before they lead 
to failures. While proponents point to the value of ``spin-off'' 
technologies that were developed for human space flight but found 
broader application in medicine or other fields, critics argue that 
those technologies probably would have been developed in any case. Past 
economic studies that attempted to quantify the value of spin-offs were 
criticized because of their methodologies, and critics suggest that 
investing federal monies in non-space areas might have yielded equally 
valuable spin-offs or led directly to new scientific knowledge or 
technologies. The two sides of this debate have been, and remain, quite 
polarized. To date, the United States and other countries have decided 
in favor of human space flight, despite its risks and costs.
    While a desire for preeminence has been one motivation in pursuing 
human spaceflight, it has not precluded cooperation. Even at the height 
of U.S.-Soviet space competition in the early days of the Space Race, 
the United States and Soviet Union also worked together--at the United 
Nations through the Committee on Peaceful Uses of Outer Space, and 
through bilateral cooperative agreements as early as 1962. In 1963, 
President Kennedy proposed that the two countries cooperate in sending 
astronauts to the Moon, but the Soviets did not accept the offer. Human 
space flight cooperation between the two countries, and with other 
countries, grew as the space programs matured. \2\ The United States 
and Soviet Union agreed to a joint docking of a Russian Soyuz and an 
American Apollo in 1975 to demonstrate ``detente in space.'' The United 
States brought Canada and the European Space Agency (ESA) into the 
Space Shuttle program, with Canada building a remote manipulator system 
(``Canadarm'') and ESA building the Spacelab module for conducting 
scientific experiments in the Shuttle's cargo bay. In 1977, the Soviet 
Union began launching cosmonauts from allied countries to its space 
stations, and the United States included representatives of many other 
countries in Space Shuttle crews beginning in 1983. To date, astronauts 
and cosmonauts from 29 other countries \3\ have journeyed into space on 
American or Russian spacecraft. And today, of course, 15 nations--the 
United States, Russia, Canada, Japan, and 11 European countries--are 
partners in building the International Space Station.
---------------------------------------------------------------------------
    \2\ There has been extensive cooperation in other space activities 
as well since the beginning of the Space Age.
    \3\ Afghanistan, Austria, Belgium, Bulgaria, Canada, Cuba, 
Czechoslovakia, France, Germany, Hungary, India, Israel, Italy, Japan, 
Kazakhstan, Mexico, Mongolia, Netherlands, Poland, Romania, Saudi 
Arabia, Slovakia, South Africa, Spain, Switzerland, Syria, Ukraine, 
United Kingdom, and Vietnam.
---------------------------------------------------------------------------
    The international landscape has influenced the course of human 
space flight over these decades. But fundamentally, the desire to 
pursue such activities seems based on a quest for national 
technological preeminence and a yearning to explore new frontiers.
Why the Shuttle?
    The first decade of the U.S. human space flight program saw the 
execution of the Mercury, Gemini, and Apollo programs. As 1969 dawned 
and the first Apollo lunar landing neared, President Nixon took office 
and faced the question of what goals should guide the space program in 
the post-Apollo years. He established a ``Space Task Group,'' chaired 
by Vice President Agnew, to develop recommendations. The group's report 
laid out a plan that called for developing a space station, a reusable 
space transportation system to service it, and sending humans to Mars. 
But after America won the Moon Race with the Apollo 11 landing in July 
1969, it became apparent that support for expensive human space 
missions was waning. Attention turned to other national priorities, and 
NASA found that it had to pick just one of those new projects. It 
decided that the first step should be development of the reusable space 
transportation system--the Space Shuttle. One goal of the Shuttle 
program was to significantly reduce the cost of launching people and 
cargo into space. President Nixon announced the Shuttle program in 
1972. It was quite controversial in Congress, but ultimately was 
approved.
    The reusable Space Shuttle was intended to replace all other U.S. 
launch vehicles, so-called ``expendable launch vehicles'' (ELVs) that 
can only be used once. By transferring all space traffic to the 
Shuttle, NASA projected that the Shuttle's development and operations 
costs would be amortized over a large number of annual launches--48 
flights per year-- with resulting cost efficiencies.
    That premise has not held true, however. The costs were higher than 
expected, and the annual flight rate much lower. Since 1981 when the 
Shuttle was first launched, the greatest number of launches in a single 
year has been nine. One factor in the lower launch rate was policy 
changes in the aftermath of the 1986 Space Shuttle Challenger accident. 
The Reagan White House reversed the decision to phase out ELVs and 
announced that, with few exceptions, the Shuttle could be used only for 
missions requiring the Shuttle's ``unique capabilities'' such as crew 
interaction. Commercial communications satellites, expected to comprise 
a large share of Shuttle launches, no longer could be launched on the 
Shuttle. While that provided a market for the resurrected ELVs, the 
effect on the Shuttle program was many fewer launches and a higher 
cost-per-launch. Today, many point to the Shuttle as an outstanding 
technical success, but an economic failure.
    In the 22 years since the Shuttle's first flight, NASA (sometimes 
working with DoD) has initiated several attempts to develop a successor 
to the Shuttle--a ``second generation reusable launch vehicle''--with 
the continued goal of reducing costs. Each attempt has failed in turn, 
in large part because anticipated technological advances did not 
materialize. Thus, the Shuttle continues to be the sole U.S. vehicle 
for launching people into space, and the only launch vehicle capable of 
meeting the International Space Station's requirements for taking cargo 
up and back. Late last year, NASA again reformulated its plan to 
develop a successor to the Shuttle, asserting that an economic case 
could not be made at this time for investing as much as $30-35 billion 
in such a vehicle. Instead, NASA plans to continue operating the 
Shuttle until at least 2015 (instead of 2012), and perhaps 2020 or 
longer.
    That decision was made prior to the Columbia tragedy, but NASA 
officials have subsequently made clear that no change is expected. NASA 
plans to build an ``Orbital Space Plane'' that could supplement (but 
not replace) the Shuttle early in the next decade, and there are 
discussions about potentially flying the Shuttle with as few as two 
crew members, or perhaps autonomously (without a crew), in the long 
term future. For the present, however, NASA asserts that the Shuttle is 
needed to support the International Space Station program, and to 
service the Hubble Space Telescope.
Options for the Future
    In the wake of the Columbia tragedy, Congress is again assessing 
the costs and benefits of human space flight. Congress has faced these 
questions before--in the early days of the Space Age, after the 1967 
Apollo fire that took the lives of three astronauts, after the United 
States won the ``Moon Race'', and after the 1986 Space Shuttle 
Challenger tragedy that claimed seven lives. Based on past experience, 
many expect that the decision will be made to continue the human space 
flight program essentially unchanged once the cause of the Columbia 
accident is determined and fixed. But there are a number of options to 
consider, each with its own set of advantages and disadvantages. The 
major options and some of the associated pros and cons are discussed 
next.
    1. Terminate the U.S. human space flight program, including the 
Space Shuttle, U.S. participation in the International Space Station 
(ISS) program, and plans to develop an Orbital Space Plane.
    Pros: The annual budget for the Space Shuttle is approximately $4 
billion, and for the Space Station is approximately $2 billion. That 
amount of funding, plus whatever would be spent on the Orbital Space 
Plane (which is still in the formulation phase) could be saved, or 
redirected to other space or non-space priorities such as robotic space 
flight, scientific research, homeland security, or the costs of the 
Iraqi war. Human lives would not be at risk. Human spaceflight might 
remain a long term vision.
    Cons: To the extent that human space flight is still perceived as a 
measure of a nation's technological preeminence, that advantage would 
be lost. \4\ Although the United States is the leader of the 
International Space Station (ISS) program, ISS could continue without 
U.S. involvement, as long as the other partners had the requisite 
funds. \5\ Thus, the more than $30 billion U.S. investment in the Space 
Station could be lost for American taxpayers, while the other partners 
could continue to use it for their own purposes. Without servicing 
missions by the Space Shuttle, the Hubble Space Telescope might not 
achieve its scientific potential, and non-Shuttle options for disposing 
of it at the end of its life would have to be developed. \6\ There also 
could be consequences for the U.S. aerospace industry, particularly 
Boeing and Lockheed Martin. \7\
---------------------------------------------------------------------------
    \4\ Some would find this ironic at a time when China is about to 
become only the third country capable of launching people into space. 
It has launched four test spacecraft as part of that goal; the first 
launch carrying a Chinese astronaut, or ``taikonaut,'' is expected late 
this year.
    \5\ The ISS program is an international partnership among the 
United States, 11 European countries, Japan, Canada, and Russia. The 
Russians have three decades of experience in operating space stations 
without a Space Shuttle. Most of the remaining segments of the Space 
Station are designed to be launched on the Shuttle, so construction 
would remain stalled until and unless some other launch vehicle becomes 
available to launch the remaining segments, but operation of the 
existing space station could continue using Russian Soyuz and Progress 
spacecraft if funds are available.
    \6\ At least one more servicing mission is planned in 2004 to 
enable the telescope to operate until 2010. At that time, NASA plans to 
use the Shuttle to return the telescope to Earth because it does not 
want it to make an uncontrolled reentry into the Earth's atmosphere. 
Such a reentry could pose hazards from falling debris.
    \7\ The two companies operate the Space Shuttle (under a joint 
venture called United Space Alliance). Boeing is also the prime 
contractor for the Space Station program.
---------------------------------------------------------------------------
    Terminate the Shuttle and Orbital Space Plane programs, but 
continue participation in the ISS program, relying on Russian vehicles 
for taking U.S. astronauts to and from space when possible.
    Pros: The annual budget for the Space Shuttle is approximately $4 
billion, so that amount of funding, plus whatever would be spent on 
OSP, could be saved or redirected to other space or non-space 
priorities (as above). The lives of fewer astronauts would be at risk. 
Compared to Option 1, this would leave open the possibility of U.S. use 
of the Space Station whenever NASA could obtain flight opportunities on 
Russia's Soyuz spacecraft.
    Cons: Similar to Option 1, but if the United States wanted to 
continue using ISS, it would need to work with the other partners to 
solve the problem of how to deliver cargo to and return it from ISS. 
\8\ If only the Soyuz spacecraft is used to take crews to and from the 
Space Station, agreements would have to be reached with Russia on how 
often American astronauts would be included in the Space Station crews 
and how much it would cost. \9\ The issues related to the Hubble Space 
Telescope and the U.S. aerospace industry (discussed above) would 
remain.
---------------------------------------------------------------------------
    \8\ Vehicles other than the Shuttle are available, or are expected 
to become available in the next few years, to take cargo to the Space 
Station, but none can bring cargo back to Earth. Russia's Progress 
spacecraft is the only other cargo craft available today. Russia has 
indicated that it cannot afford to build more than about three per 
year, however, which is insufficient to resupply even a two-person crew 
(this problem is being addressed currently). Under the Iran 
Nonproliferation Act, NASA is prohibited from making payments to Russia 
in connection with the Space Station program unless the President 
certifies that Russia is not proliferating certain technologies to 
Iran. Without such a certification, NASA could not pay Russia for 
Progress flights. Europe and Japan are both developing spacecraft that 
will be able to take cargo to the Space Station, but they will not be 
available for several years, and cannot return cargo to Earth. U.S. 
expendable launch vehicles potentially could be used to take cargo to 
the Space Station, although a cargo spacecraft equipped with autonomous 
rendezvous and docking systems would have to be developed. These also 
probably would not be able to return cargo to Earth.
    \9\ The Iran Nonproliferation Act (discussed in the previous 
footnote) would also prohibit U.S. payments to Russia for Soyuz flights 
unless the President certifies that Russia is complying with the Act.
---------------------------------------------------------------------------
    3. Terminate the Shuttle program, but continue participation in the 
ISS program and continue to develop the Orbital Space Plane or another 
replacement for the Shuttle.
    Pros: The annual budget for the Space Shuttle is approximately $4 
billion, so that amount of funding could be saved, or redirected to 
other space or non-space priorities (as above). Costs for developing 
and operating an Orbital Space Plane or a successor to the Shuttle are 
not yet known, however, so there might not be any net savings over the 
long term. A new vehicle might be safer and more cost effective.
    Cons: The disadvantages of this option would be similar to those 
for Option 2, except that at some point in the future, a U.S. human 
space flight vehicle would become operational, ameliorating questions 
about access to the Space Station by American crews.
    4. Continue the Shuttle program, but with fewer missions--perhaps 
limiting it to space station visits--and as few crew as possible.
    Pros: Would limit the risk to Shuttle crews. If the Space Station 
was equipped with a system to inspect the Shuttle prior to undocking, 
\10\ problems could be identified and possibly repaired. Continues U.S. 
leadership in space and any resulting benefits therefrom.
---------------------------------------------------------------------------
    \10\ This would be in addition to inspections that could be 
accomplished using Department of Defense ground- and space-based 
sensors.
---------------------------------------------------------------------------
    Cons: There would be little, if any, financial savings from this 
option. \11\ Astronaut lives would remain at risk. The question of what 
to do with the Hubble Space Telescope (discussed above) would remain if 
flights were limited only to space station visits.
---------------------------------------------------------------------------
    \11\ There are only two non-space station missions on the Shuttle's 
schedule today, both to the Hubble Space Telescope. At NASA's current 
estimate of the marginal cost of a Shuttle launch ($115 million), that 
would save only $230 million. The costs for fixing the problems that 
caused the Columbia accident are unknown, but seem likely to exceed 
that amount.
---------------------------------------------------------------------------
    5. Resume Shuttle flights as planned.
    Pros: Allows construction and utilization of the Space Station to 
continue as planned. Allows the Hubble Space Telescope to be serviced 
and returned to Earth. Continues U.S. leadership in space and any 
resulting benefits therefrom.
    Cons: There would be no financial savings, and costs would be 
incurred to fix the Shuttle. The risk to human life would remain.
    Options 4 and 5 could be coupled with directives to NASA to:

  <bullet> equip the Space Station with a system that could inspect the 
        Shuttle while it is docked;

  <bullet> upgrade the Shuttle to make it safer, perhaps including 
        additional crew escape systems or making the crew cabin 
        survivable if the vehicle breaks apart;

  <bullet> develop systems to enable the Shuttles to fly autonomously 
        (without a crew); and/or

  <bullet> accelerate efforts to build a successor to the Shuttle with 
        the emphasis on improved safety, even if that meant not 
        reducing costs as much as desired.

Summary
    Mr. Chairman, as I said, this brief statement provides only a 
cursory review of these complex issues. As the world readies to 
celebrate the 42nd anniversary of Yuri Gagarin's historic flight 10 
days from now, the future of the U.S. human space flight program is in 
question. Apart from the broad questions of whether the U.S. human 
space flight program should continue, a more specific focus may be the 
cost of returning the Shuttle to flight status and how long it will 
take. Those answers will not be known until the cause of the Columbia 
accident is determined, and remedies identified. If the costs are high, 
difficult decisions may be needed on whether to use the funds for the 
Shuttle, for other space initiatives, or for other national priorities 
such as paying for the Iraqi war and homeland security. While many 
expect that the United States will once again rally behind NASA, only 
time will tell if the past is prologue.

BRIEF HISTORY OF HUMAN SPACE FLIGHT: 1961-2003
United States
    Mercury (1961-1963)
    Purpose: To demonstrate that humans can travel into space and 
return safely.
    Flights: Six flights (two suborbital, four orbital). Alan Shepard, 
first American in space (on suborbital flight), May 5, 1961. John 
Glenn, first American in orbit, Feb. 20, 1962.

    Gemini (1965-1966)
    Purpose: To prepare for lunar missions by extending the duration of 
spaceflight (to 14 days), developing experience in rendezvous and 
docking, and demonstrating ability to work outside the spacecraft 
(extravehicular activity--EVA)
    Flights: 10 flights. Ed White conducted first U.S. EVA (June 1965).

    Apollo Lunar Program (1967-1972)
    Purpose: To land men on the Moon and return them safely to Earth.
    Flights: Eleven flights, nine to the Moon. Of the nine, two (Apollo 
8 and 10) were test flights that did not attempt to land, one (Apollo 
13) suffered an in-flight failure and the crew narrowly averted tragedy 
and were able to return to Earth, and six (Apollo 11, 12, 14, 15, 16, 
and 17) landed two-man teams on the lunar surface. Neil Armstrong and 
Buzz Aldrin were the first humans to set foot on the Moon on July 20, 
1969, while Mike Collins orbited overhead.

    Space Tragedy The Apollo program saw the first spaceflight-related 
tragedy when the three-man crew (Gus Grissom, Ed White, and Roger 
Chaffee) of the first Apollo mission was killed on January 27, 1967, 
when fire erupted in the Apollo command module during a pre-launch 
test. The Apollo program resumed flights 21 months later.

    Skylab (1973-1974)
    Purpose: First U.S. Space Station
    Flights: The Skylab Space Station was launched in May 1973. Three 
three-person crews were launched to Skylab using Apollo capsules from 
1973 to 1974, extending the duration of human space flight to a new 
record of 84 days. A wide variety of scientific experiments were 
conducted. Skylab was not intended to be permanently occupied. It 
remained in orbit, unoccupied, until 1979 when it made an uncontrolled 
reentry into the Earth's atmosphere, raining debris on western 
Australia and the Indian Ocean.

    Apollo-Soyuz Test Project (1975)
    Purpose: Cooperation with the Soviet Union.
    Flight: A three-man Apollo crew docked with a two-man Soyuz crew 
for two days of joint experiments to demonstrate ``detente in space.'' 
This was the last flight in the Apollo series. No Americans journeyed 
into space for the next six years while waiting for the debut of the 
Space Shuttle.

    Space Shuttle (1981-present)
    Purpose: Reusable launch vehicle for taking crews and cargo to and 
from Earth orbit.
    Flights: Pre-Challenger. Twenty four successful Shuttle missions 
were launched from 1981-1986. The Shuttles were used to take satellites 
into space; retrieve malfunctioning satellites (using ``Canadarm,'' a 
remote manipulator system built by Canada); and conduct scientific 
experiments (particularly using the Spacelab module built by the 
European Space Agency). Sally Ride became the first American woman in 
space in 1983, Guion Bluford became the first African American in space 
in 1983, and Kathy Sullivan became the first American woman to perform 
an EVA in 1984. Senator Jake Garn and then-Representative (now Senator) 
Bill Nelson made Shuttle flights in 1985 and 1986 respectively.

    Space Tragedy: On January 28, 1986, the Space Shuttle Challenger 
exploded 73 seconds after launch when an ``O-ring'' in a Solid Rocket 
Booster failed. All seven astronauts aboard were killed: Francis (Dick) 
Scobee, Mike Smith, Judy Resnik, Ellison Onizuka, Ron McNair, Gregory 
Jarvis, and Christa McAuliffe (a schoolteacher). The Space Shuttle 
returned to flight 32 months later.
    Post-Challenger. From September 1988-January 2003, the Shuttle made 
87 successful flights. Nine of these docked with the Russian Space 
Station Mir. Since 1998, most Shuttle flights have been devoted to 
construction of the International Space Station.

    Space Tragedy: On February 1, 2003, the Space Shuttle Columbia 
broke apart as it returned to Earth from a 16-day scientific mission in 
Earth orbit. All seven astronauts aboard were killed: Rick Husband, 
William McCool, Michael Anderson, David Brown, Kalpana Chawla, Laurel 
Clark, and Ilan Ramon, an Israeli. The cause of the accident is under 
investigation.

    International Space Station (1998-present)
    Purpose: Space Station
    Flights: The United States initiated the Space Station program in 
1984. In 1988, nine European countries (now eleven), Canada, and Japan 
formally became partners with the United States in building it. In 
1993, the program was restructured due to cost growth, and Russia 
joined the program as a partner. Construction began in 1998 and is 
currently suspended pending the Space Shuttle's return to flight. 
Successive three-person crews have permanently occupied ISS since 
November 2000. The three-person crews are alternately composed of two 
Russians and one American, or two Americans and one Russian. ISS is 
routinely visited by other astronauts on Russian Soyuz spacecraft or 
the Space Shuttle (prior to the Columbia accident) some of whom are 
from other countries.

Soviet Union/Russia
    Vostok (1961-1963)
    Purpose: To demonstrate that humans can travel into space and 
return safely.
    Flights: Six flights (all orbital). Yuri Gagarin, first man in 
space (made one orbit of the Earth), Apr. 12, 1961. Valentina 
Tereshkova, first woman in space, June 16, 1963.

    Voskhod (1964-1965)
    Purpose: Modified Vostok spacecraft used to achieve two more space 
``firsts'': first multi-person crew, and first EVA.
    Flights: Two flights. Vokhod 1 carried three-person crew. On 
Voskhod 2, Alexei Leonov performed the first EVA (March 1965).

    Soyuz (1967-present)
    Purpose: To develop a spacecraft for taking crews back and forth to 
Earth orbit. Early flights extended the duration of human space flight 
(to 18 days) and practiced rendezvous and docking. Flights since Soyuz 
10 (1971) have been largely devoted to taking crews back and forth to 
Soviet Space Stations (Salyut and Mir, see below), and to the 
International Space Station.
    Flights: The Soyuz is still in use today, although it has been 
modified several times. The original Soyuz was replaced by Soyuz T in 
1980, by Soyuz TM in 1987, and by Soyuz TMA in 2002. There were 40 
flights of Soyuz, 15 of Soyuz T, 34 of Soyuz TM, and one flight of 
Soyuz TMA to date. (A few of these missions did not carry crews.)

    Space Tragedy: The Soyuz program saw the first Soviet space tragedy 
when Vladimir Komarov was killed during the first Soyuz mission on 
April 24, 1967. The craft's parachute lines tangled during descent and 
he was killed upon impact with the Earth. The Soyuz program resumed 
flights 18 months later.

    Salyut 1 (1971)
    Purpose: First Space Station
    Flights: Salyut 1 was launched in April 1971. This was a ``first 
generation'' Soviet Space Station with only one docking port. Two crews 
were launched to the Space Station. The first docked, but was unable to 
open the hatch to the Space Station, and returned home.

    Space Tragedy: The second crew, Soyuz 11, docked and entered the 
Space Station, and remained for three weeks. When they returned to 
Earth on June 29, 1971, an improperly closed valve allowed the Soyuz's 
atmosphere to vent into space. The three cosmonauts (Georgiy 
Dobrovolskiy, Vladimir Volkov, and Viktor Patsayev) were not wearing 
spacesuits and asphyxiated. The Soviets had eliminated the requirement 
for spacesuits because they had confidence in their technology, and 
three space-suited cosmonauts could not fit in the Soyuz as it was 
designed at that time. The Soyuz returned to flight 27 months later. 
The Soviets have required spacesuits since that time, and launched only 
two-person crews for the next 10 years until the Soyuz T version was 
introduced which could accommodate three cosmonauts in spacesuits.

    Other ``First Generation'' Salyut Space Stations (1974-1977)
    Unnamed launch (1972) did not reach orbit.
    Salyut 2 (1973) broke apart in orbit.
    Kosmos 557 (1973) broke apart in orbit.
    Salyut 3 (1974) hosted one crew (another was unable to dock) and 
was designated in the West as a military space station dedicated to 
military tasks.
    Salyut 4 (1974-1975) hosted two crews, and was designated in the 
West as a civilian space station. A third crew was launched to the 
Space Station, but the launch vehicle malfunctioned and the crew landed 
in Siberia (the so-called ``April 5th anomaly'' or Soyuz 18A).
    Salyut 5 (1976-1977) hosted two crews and was designated in the 
West as a military space station. A third crew was unable to dock.

    Soyuz-Apollo Test Project (1975)
    Purpose: Cooperation with the United States
    Flight: A three-man Apollo crew docked with a two-man Soyuz crew 
for two days of joint experiments to demonstrate ``detente in space.'' 
This was the last flight in the Apollo series. No Americans journeyed 
into space for the next six years while waiting for the debut of the 
Space Shuttle.
    ``Second Generation'' Salyut Space Stations (1977-1986)
    Purpose: Expand space station operations. The second generation 
space stations had two docking ports, enabling resupply missions and 
``visiting'' crews that would remain aboard the Space Station for about 
one week visiting the long duration space station crews, who remained 
for months. These space stations were occupied intermittently over 
their lifetimes.

    Salyut 6 (1977-1982) hosted 16 crews (two others were unable to 
dock). The Soviets increased the duration of human space flight to 185 
days. The visiting crews often brought cosmonauts from other countries. 
The first non-U.S., non-Soviet in space was Vladimir Remek of 
Czechoslovakia in 1978.

    Salyut 7 (1982-1986) hosted 10 crews. A new duration record of 237 
days was set. Among the visiting crews was the second woman to fly in 
space, Svetlana Savitskaya. She visited Salyut twice (in 1982 and 
1984), and on the second mission, become the first woman to perform an 
EVA. One crew that was intended to be launched to Salyut 7 in 1983 
suffered a near-tragedy when the launch vehicle caught fire on the 
launch pad. The emergency abort tower on top of the launch vehicle 
propelled the Soyuz capsule away from the launch pad to safety. Unlike 
all the previous Soviet Space Stations, which were intentionally 
deorbited into the Pacific Ocean, Salyut 7 made an uncontrolled reentry 
in 1991, raining debris on Argentina. There was insufficient fuel for a 
controlled reentry.
    ``Third Generation'' Mir Space Station (1986-2001)
    The Mir Space Station was a modular space station with six docking 
ports. The core of the Space Station was launched in 1986. Additional 
modules were added through 1996. Mir hosted a large number of crews, 
and inaugurated the era of ``permanently occupied'' space stations 
where rotating crews were aboard continuously. Mir was permanently 
occupied from 1989 to 1999. A new duration record of 438 days was set. 
In 1991, following the collapse of the Soviet Union, the United States 
and Soviet Union increased cooperative activity in human spaceflight, 
including Russian cosmonauts flying on the U.S. Shuttle, and American 
astronauts making multi-month stays on Mir. Nine U.S. Space Shuttles 
docked with Mir from 1995-1998. In 1997, a fire erupted inside Mir when 
a ``candle'' used to generate oxygen malfunctioned. That same year, a 
Russian cargo spacecraft (Progress) collided with Mir during a failed 
docking attempt. These events called into question the wisdom of 
keeping crews on Mir, but both the Russians and the Americans continued 
to send crews to the Space Station. Mir was intentionally deorbited 
into the Pacific Ocean in 2001.

    International Space Station (1998-present)
    Purpose: Space Station
    Flights: The United States initiated the Space Station program in 
1984. In 1988, nine European countries (now eleven), Canada, and Japan 
formally became partners with the United States in building it. In 
1993, the program was restructured due to cost growth, and Russia 
joined the program as a partner. Construction began in 1998 and is 
currently suspended pending the Space Shuttle's return to flight. 
Successive three-person crews have permanently occupied ISS since 
November 2000. The three-person crews are alternately composed of two 
Russians and one American, or two Americans and one Russian. ISS is 
routinely visited by other astronauts on Russian Soyuz spacecraft or 
the Space Shuttle (prior to the Columbia accident) some of whom are 
from other countries.

    Senator Brownback. Thanks, Ms. Smith. And I appreciate your 
expertise that's been available for many years to Congress to 
help us look at this overall issue. We will get into a lot of 
this in the questions and answers.
    Mr. Chase, executive director of The National Space 
Society, welcome, and the floor is yours.

STATEMENT OF BRIAN E. CHASE, EXECUTIVE DIRECTOR, NATIONAL SPACE 
                            SOCIETY

    Mr. Chase. Thank you, Mr. Chairman, Senator Breaux.
    Robust low-cost access to space is the key to expanding our 
opportunities in space, whether in low-earth orbit or beyond, 
and this issue is even more critical in the wake of the loss of 
the Space Shuttle Columbia.
    NASA's 2004 budget submission contains important elements 
of an integrated space transportation plan to begin addressing 
this important issue. The first element of the plan is the 
Service Life Extension Program which addresses the need to 
upgrade the Space Shuttle fleet and its supporting 
infrastructure. The Space Shuttle is the only vehicle that can 
complete the International Space Station, so we need to return 
the fleet to service as quickly as is feasible to let it 
complete that mission.
    Although the original estimates for the Shuttle's costs 
were very optimistic, as has already been said, the Space 
Shuttle's capabilities remain unmatched today. But we cannot 
escape the need for a backup to the Shuttle, so the second 
element of the plan is to provide a complementary capability to 
transfer crews to and from the Space Station.
    The current proposal, called the orbital space plane, would 
be launched aboard evolved expendable launch vehicles, EELVs, 
developed jointly by the Department of Defense and industry and 
now operated commercially by Boeing and Lockheed Martin as the 
Delta 4 and Atlas 5. While the orbital space plane could serve 
as a component for a next-generation launch vehicle, it serves 
only as a complement to, not a replacement for, the Shuttle 
during this phase. The additional benefit of the orbital space 
plane would be its utility in future human missions, all of 
which will require crew transfer capabilities.
    The third element of NASA's plan is the development of a 
next-generation launch system that would ultimately replace the 
Space Shuttle. The next-generation launch technology program, 
which is being conducted jointly with the Department of 
Defense, focuses on new technologies that can lead to launch 
systems with much greater reliability and much lower costs. 
This NASA/DoD partnership is one that should be encouraged and 
fostered.
    These three elements are all important efforts to improve 
our access to space, and I believe NASA's initial plan is a 
prudent step in that direction. However, there are also several 
critical factors that could be major stumbling blocks to its 
success.
    First, the loss of Columbia dramatically underscores the 
urgency to develop a secondary capability to launch crews to 
and from the Space Station. The orbital space plane can be 
built using today's technology, and most of the designs under 
consideration have been studied in several variations for the 
last 20 to 30 years, so there needs to be a very serious effort 
to accelerate this program while keeping it focused on its core 
mission of launching and retrieving crews.
    Second, NASA has to reexamine a backup capability to launch 
unmanned cargo to the International Space Station. NASA's 
Alternate Access to Station initiative was doing just that, but 
that program is slated to be terminated this summer without 
moving into the test or development phase. The Alternate Access 
to Station program should get a fresh look from NASA.
    Third, once the orbital space plane and some form of a 
backup cargo capability are activated, we should not rush to an 
artificial deadline to develop a new launch system. While it's 
important for us to continue making investments in new launch 
technology, it's equally important that we develop a strategic 
plan for our space exploration efforts and not waste time and 
money jumping from program to program.
    Finally, I believe a key, yet overlooked, element in this 
debate is the evolved expendable launch vehicle I mentioned 
earlier. Although designed initially for unmanned missions, the 
fleet of EELVs represent significant improvements in safety, 
reliability, and efficiency over their predecessors. Once 
modified for human launch requirements to handle orbital space 
plane missions, the EELVs will represent a formidable and 
versatile fleet of vehicles that can fulfill an even wider 
range of missions than they perform today. Importantly, by 
expanding the EELVs' market to include crew and cargo to ISS, 
that improves our Nation's competitiveness in the commercial 
space arena, as well.
    In summary, I believe NASA's plan to be a reasonable 
approach. We should begin making the investments now to ensure 
we can complete the International Space Station and then build 
a robust, yet simple, secondary capability to transfer crew and 
cargo to and from orbit. Beyond that, though, we should 
carefully consider our next steps as part of a long-term space 
architecture that provides a bold vision for the future. We can 
certainly begin building some of that infrastructure today, but 
we need a roadmap to put that infrastructure to work.
    I thank you for the opportunity to appear today and look 
forward to your questions.
    [The prepared statement of Mr. Chase follows:]

  Prepared Statement of Brian E. Chase, Executive Director, National 
                             Space Society

    Chairman Brownback, Senator Breaux and Members of the Subcommittee, 
thank you for inviting me here today.
    I am pleased to present testimony to the Subcommittee on behalf of 
the National Space Society, a nonprofit organization dedicated to 
promoting space exploration. NSS has approximately 22,000 members 
around the world, including space professionals, astronauts, business 
leaders, elected officials, and, most important, everyday citizens 
without ties to the space industry who support the exploration, 
development, and eventual settlement of space.
    The Subcommittee has asked NSS to provide its perspective on NASA's 
human space flight programs and how those initiatives relate to efforts 
to develop new space transportation systems. In our view, access to 
space is the most critical part of any future space exploration 
efforts, so I appreciate the opportunity to share our thoughts today.

NASA's Integrated Space Transportation Plan
    Robust, low cost access to space is the key to expanding 
opportunities in space, whether in Low Earth Orbit or beyond. In light 
of the loss of the Space Shuttle Columbia, it is more important than 
ever for our nation to address the issue of how we transport people and 
cargo to and from space. Indeed, although the Columbia investigation 
and now the war in Iraq occupies the nation's attention, NASA's 
generally overlooked FY 2004 budget submission contains important 
elements of an Integrated Space Transportation Plan to begin addressing 
this critical issue.
    The first element of the Integrated Space Transportation Plan is 
the Service Life Extension Program, which addresses the need to upgrade 
the Space Shuttle fleet and the infrastructure that supports it. The 
Space Shuttle is the only vehicle that can complete the International 
Space Station, so we need to return the fleet to service as quickly as 
is feasible to let it complete that mission.
    Although the original estimates for the Shuttle's cost and 
performance were very optimistic--which means today we have a system 
that is significantly more expensive and more challenging to operate 
than was ever envisioned--the Space Shuttle remains a very unique and 
important asset in our nation's launch inventory. It combines the 
capabilities of a heavy lift launch vehicle, a small Space Station, an 
on-orbit repair depot, and a system that can return cargo to Earth, 
among other functions. Its capabilities, despite being conceived 30 
years ago, remain unmatched today by any vehicle flying or by anything 
even on the drawing board. So any mention of a ``replacement'' of the 
Shuttle has to be viewed as only a partial replacement, since future 
vehicles will likely not be as versatile as the Space Shuttle is today.
    But we cannot escape the realities of the need for a backup to the 
Shuttle, regardless of its impressive capabilities. The second element 
of the plan is to provide a complementary capability to transfer crews 
to and from the Space Station. The current proposal, called the Orbital 
Space Plane (OSP), would be launched aboard Evolved Expendable Launch 
Vehicles developed jointly by the Department of Defense and industry, 
and which are now operated commercially by Boeing and Lockheed Martin 
as the Delta IV and the Atlas V, respectively. The requirements laid 
out by NASA call for the OSP to be able to launch at least four crew 
members to ISS, stay on orbit for long periods of time, and to serve as 
a ``lifeboat'' to evacuate the ISS crew in the case of emergencies, 
replacing the Russian Soyuz capsules that perform that function today.
    While the OSP could serve as a component of a next generation 
system, it serves only as a complement to--not a replacement for--the 
Shuttle during this phase of the Integrated Space Transportation Plan. 
The OSP would relieve much of the Shuttle's burden of launching crew to 
and from ISS and allow the Shuttle fleet to focus on the launch of 
heavy cargo and components, but both vehicles would be flown during 
this time period. The additional benefit of the development of the OSP 
or similar vehicle would be its utility in future human missions, all 
of which will require crew transfer capabilities.
    The third element of NASA's plan is the development of a next 
generation launch system that would ultimately replace the Space 
Shuttle, meaning it would launch both crew and cargo. The Next 
Generation Launch Technology program, which is being conducted jointly 
with the Department of Defense, is a restructured element of the Space 
Launch Initiative (SLI), and focuses on new technologies and new 
systems that can lead to launch systems with much greater reliability 
and much lower costs than systems today.

The Challenges
    These three elements--upgrading the Space Shuttle, developing a 
backup system to launch crews to and from the Space Station, and 
investing in next generation launch technologies--are all critical 
components in a national plan to significantly improve our access to 
space, and I believe NASA's initial outline is a prudent step in that 
direction. However, there are also several critical factors that can be 
major stumbling blocks to the success of this plan.
    First, the loss of Columbia dramatically underscores the urgency to 
develop a secondary capability to launch crews to and from ISS, and it 
is not clear that this sense of urgency is shared by all of NASA's 
managers at the program level. Additionally, the natural inclination 
for NASA's talented engineers will be to develop the latest technology 
for use in the Orbital Space Plane--but that urge must be strongly 
resisted. The OSP can be built using today's technology, and most of 
the designs under consideration have been studied in several variations 
for the last 20-30 years. NASA's stated goal of a fully operational 
system by 2012 must be accelerated, and it must also be done as simply 
as possible by focusing on its core mission of launching and retrieving 
crews.
    Second, NASA has to reexamine a backup capability to launch cargo 
to the International Space Station. A program to do just that--NASA's 
Alternate Access to Station initiative--was examining several potential 
options to launch unmanned cargo to ISS using expendable launch 
vehicles, but that program is slated to be terminated this summer 
without moving into the test or development phase. The AAS program 
should get a fresh look from NASA so that, when combined with the 
Orbital Space Plane program, we will have both assured crew and cargo 
access to the International Space Station. The European Space Agency is 
working on the Automated Transfer Vehicle, which is designed to be a 
robotic cargo vessel for ISS. That system may offer the capabilities to 
fulfill this need, but it is an option which may or may not be viable 
depending on the state of international affairs. But both the crew and 
cargo launch capabilities are needed regardless of what long-term 
choices we make about human space exploration, so it is advisable to 
fund and begin these programs as soon as possible.
    Third, once the Orbital Space Plane and some form of backup cargo 
capability are activated, the United States will possess a significant 
launch capability that can meet multiple needs. With these 
complementary capabilities available, we should not rush to an 
artificial deadline to develop and field a new launch system. The 
Shuttle and existing fleet of expendable launch vehicles, coupled with 
the OSP and a cargo delivery system, can meet many of our nation's 
needs for the near term, and the Shuttle still possesses capabilities 
that should be carefully reviewed before we decide to retire the entire 
fleet. While it is important for us to continue making investments in 
new launch technology, it is equally important that we develop a 
strategic plan for our space exploration efforts and not waste time 
just jumping from program to program.
    Fourth, the nascent partnership between NASA and the Department of 
Defense in developing next generation launch technology should be 
encouraged and fostered. For years, an adversarial relationship existed 
between the two agencies, yet the skills and experience each brings to 
the space arena have been recognized as critical to both civil and 
national security needs.
    Finally, I believe a key yet overlooked element in our nation's 
space launch capabilities is the Evolved Expendable Launch Vehicle 
mentioned earlier. Although designed for unmanned missions, the two 
vehicles represent significant improvements in safety, reliability, and 
efficiency over their predecessors. Indeed, both the Delta IV and Atlas 
V represent, in many ways, revolutionary improvements in access to 
space. These systems are already in production and operation, and they 
are capable today of meeting the launch requirements for unmanned 
scientific, national security, and commercial missions. Once modified 
for human launch requirements, the EELVs will represent a formidable 
and versatile fleet of vehicles that can fulfill an even wider range of 
missions. Importantly, by developing a crew and perhaps cargo 
capability that can be launched aboard EELVs, that improves our 
nation's competitiveness in the commercial space arena by strengthening 
the market for those vehicles.
    The reason it is important to highlight the potential role of EELVs 
is because expendable launch systems are usually ignored in the 
discussion of next generation launch systems--most people assume that 
only reusable launch vehicles can fulfill that role. But the economics 
of reusable versus expendable systems is not as simple as it first 
appears. The key to low cost reusable vehicles is routine use that 
allows expenses to be amortized over a large number of flights. For an 
expendable vehicle, the key is low cost production, which can be 
achieved in part through launch rates that are high enough to maximize 
the efficiency of the production and assembly operation. Generally 
speaking, the launch rate for a reusable system has to be very high 
before it effectively competes with the cost of an expendable launcher. 
The best option for a next generation system may indeed turn out to be 
a reusable launch system, but it could also be a further evolution of 
the EELV or a derivative of the Space Shuttle.

The Future of Human Space Exploration
    The choices made today in space transportation investments will 
obviously impact our capabilities for future space exploration 
missions, but there are decisions that can and should be made even as 
we work to develop a long term vision for our future in space. We know 
that completing the International Space Station requires the Space 
Shuttle, and that in order to successfully operate the Space Station we 
need a robust yet simple backup capability for crew and cargo. So those 
are two elements of space transportation planning that should proceed 
as quickly as possible and accelerated where feasible.
    Beyond those elements, we should carefully consider our next steps. 
Focusing exclusively on reusable launch vehicles may be the right 
choice if we seek routine access for crew and low-to-medium weight 
cargo. But if we opt to launch heavy cargo (such as components for a 
mission to Mars), then expendable launch vehicles may better fill that 
role. So the nation needs to develop a long-term space exploration 
architecture to provide a clear direction for the future to help direct 
these efforts. NASA has begun an initiative to accomplish this 
important task, but it needs public and political support to remain a 
key part of the NASA agenda. Without that underlying vision for 
tomorrow, it makes it more difficult to make the right decisions today.
    So the choice before our nation is complex, but, importantly, it is 
not an ``either-or'' proposition. In order to fund future launch 
systems, we do not have to cannibalize the Shuttle program, and in 
order to fund the Shuttle we do not have to forgo future investments in 
next generation launch technology. I also know you have to wrestle with 
difficult budget choices in a wide range of areas and, as stewards of 
the public's money, I know you consider it important to make 
investments that are worthwhile and have a benefit to the taxpayers.
    Space exploration is worthwhile endeavor and a sound investment in 
the future, and it is an investment that can be made even while meeting 
other needs in our nation. It is important to invest in the future, and 
it is important, as a society, to continue opening frontiers. History 
teaches us that societies that have pushed their frontiers outward have 
prospered; those that have not have withered and faded into the history 
books. No society has ever gone wrong opening up the frontier, and we 
shouldn't stop now.
    Thank you for the opportunity to appear before you today.

    Senator Brownback. Thank you, Mr. Chase, and I look forward 
to discussion as well.
    Dr. Alex Roland is professor of history at Department of 
History, Duke University, and a former historian for NASA. 
Thank you for joining us today. The floor is yours.

STATEMENT OF ALEX ROLAND, PROFESSOR OF HISTORY, DUKE UNIVERSITY

    Dr. Roland. Thank you.
    Senator Brownback, Senator Breaux, thank you for the 
opportunity to share with you my views on human space flight, 
which will be considerably different than what you've heard so 
far, though there are many points of convergence.
    The Columbia accident confirmed what the Challenger 
accident made clear; systemic flaws in the Space Shuttle render 
it unsustainable as a safe, reliable, and economical launch 
vehicle. The Rogers Commission issued two critical injunctions 
to NASA--do not rely on the Space Shuttle as the mainstay of 
your launch capability; begin at once to develop a next-
generation launch vehicle. Sixteen years later, NASA is 
massively dependent upon the Shuttle; no replacement is in 
sight.
    I have appended to my written remarks an article explaining 
how and why the Shuttle program became systemically flawed. 
Briefly stated, NASA made two mistakes in Shuttle development 
in the late 1960s and early 1970s. First, it traded development 
costs for operational costs. Second, it convinced itself that a 
recoverable launch vehicle would be inherently more economical 
than an expendable. NASA promised savings of 90, even 95 
percent in launch costs. In practice, it costs more to put a 
pound of payload in orbit aboard the Shuttle than it did aboard 
the Saturn launch vehicle that preceded it.
    These mistakes produced a program that cannot work. NASA 
could conceivably operate the Shuttle safely and reliably, but 
it dares not admit what it would cost.
    The evidence for this was abundant before the Challenger 
accident. Instead of listening to that data, NASA consistently 
allowed its judgment to be clouded by its hopes and predictions 
for human activities in space. The agency cares about astronaut 
safety, but it's trapped by its own claims about Shuttle costs. 
And, unlike expendable launch vehicles, the Shuttle grows more 
dangerous and more expensive to fly with each passing year.
    In what it euphemistically called success-oriented 
management--that is, hoping for the best--NASA assumed, in 
1970, that each orbiter would fly 50 times. In those heady 
days, NASA was expecting 60 Shuttle flights a year by 1985, 
meaning that a fleet of five Shuttles would be completely 
replaced every 5 years. No one imagined that a Shuttle would be 
in service after 20 years, let alone 30 or 40 years.
    Unfortunately, nothing practical can be done now to save 
the Shuttle program. A crew escape system would help reduce the 
risk to human life, but it cannot eliminate it. It is not clear 
that crew escape could have saved the astronauts aboard either 
Columbia or Challenger. Nor will an infusion of new money 
suffice. The United States spends more on space then the rest 
of the world combined. NASA has ample funding to support a 
robust space program. It has simply wasted too much of that 
money flying astronauts on unnecessary missions aboard a 
ruinously expensive spacecraft.
    We should drastically curtail human space flight until we 
have a safe, reliable, and economical launch vehicle. In the 
meantime, anything we want to do in space, except having humans 
there as an end in itself, we can do more effectively and 
efficiently with automated spacecraft controlled from earth. 
Whenever we put people in a spacecraft, we change the primary 
goal, be it reconnaissance or communication, science or 
exploration, to bringing the astronauts back alive. Most of the 
weight, and, hence, the cost, of manned missions comes from 
safety and life-support systems. The astronauts contribute 
little. Even had the astronauts aboard Columbia known of the 
damage to their spacecraft, they could not have saved 
themselves.
    NASA should begin at once to carry out the recommendations 
of the Rogers Commission. It should limit Shuttle flights to a 
bare minimum. It should convert the Space Station into a space 
platform to be visited, but not inhabited. And it should use 
the savings from these actions to fund development of a new 
launch vehicle.
    I have enormous confidence in NASA's ability to achieve a 
vital and productive space program, including both human and 
automated missions. But to achieve that goal, it must do the 
right thing. That means phasing out the Shuttle. It is a death 
trap and a budgetary sinkhole. NASA must develop a stable of 
launch vehicles that will open up the promise of space.
    I believe that we should send people into space only when 
they have something to do there commensurate with the risk and 
cost of sending them. Given the liabilities of the Shuttle, I 
do not know of any mission now that meets that criterion.
    Thank you.
    [The prepared statement of Dr. Roland follows:]

     Prepared Statement of Alex Roland, Professor of History, Duke 
                               University

    Senators, thank you for the opportunity to share with you my views 
on human spaceflight.
    The Columbia accident confirmed what the Challenger accident made 
clear. Systemic flaws in the Space Shuttle render it unsustainable as a 
safe, reliable, and economical launch vehicle. The Rogers Commission 
issued two critical injunctions to NASA. Do not rely on the Space 
Shuttle as the mainstay of your launch capability. Begin at once to 
develop a next-generation launch vehicle. Sixteen years later NASA is 
massively dependent on the Shuttle; no replacement is in sight.
    I have appended to my written remarks an article explaining how and 
why the Shuttle program became systemically flawed. Briefly stated, 
NASA made two mistakes in Shuttle development in the late 1960s and 
early 1970s. First, it traded development costs for operational costs. 
Second, it convinced itself that a recoverable launch vehicle would be 
inherently more economical than an expendable. NASA promised savings of 
90 percent, even 95 percent, in launch costs. In practice, it costs 
more to put a pound of payload in orbit aboard the Shuttle than it did 
aboard the Saturn launch vehicle that preceded it.
    These mistakes produced a program that cannot work. NASA could 
conceivably operate the Shuttle safely and reliably, but it dares not 
admit what it would cost. The evidence for this was abundant before the 
Challenger accident. Instead of listening to the data, NASA 
consistently allowed its judgment to be clouded by its hopes and 
predictions for human activities in space. The agency cares about 
astronaut safety, but it is trapped by its own claims about Shuttle 
costs. And, unlike expendable launch vehicles, the Shuttle grows more 
dangerous and more expensive to fly with each passing year. In what it 
euphemistically called ``success-oriented management,'' i.e., hoping 
for the best, NASA assumed in 1970 that each orbiter would fly fifty 
times. But in those heady days, NASA was expecting sixty Shuttle 
flights a year by 1985, meaning that a fleet of five Shuttles would be 
completely replaced every five years. No one imagined that a Shuttle 
would be in service after twenty years.
    Unfortunately, nothing practical can be done now to save the 
Shuttle. A crew escape system would help reduce the risk to human life, 
but it cannot eliminate it. It is not clear that crew escape could have 
saved the astronauts aboard either Columbia or Challenger. Nor will an 
infusion of new money suffice. The United States spends more on space 
than the rest of the world combined. NASA has ample funding to support 
a robust space program. It has simply wasted too much of that money 
flying astronauts on unnecessary missions aboard a ruinously expensive 
spacecraft.
    We should drastically curtail human spaceflight until we have a 
safe, reliable, and economical launch vehicle. In the meantime, 
anything we want to do in space, except having humans there as an end 
in itself, we can do more effectively and efficiently with automated 
spacecraft controlled from earth. Whenever we put people in a 
spacecraft we change the primary goal--be it reconnaissance or 
communication, science or exploration--to bringing the astronauts back 
alive. Most of the weight and hence the cost of manned missions comes 
from safety and life support systems. The astronauts contribute little. 
Even had the astronauts aboard Columbia known of the damage to their 
spacecraft, they could not have saved themselves.
    NASA should begin at once to carry out the recommendations of the 
Rogers Commission. It should limit Shuttle flights to a bare minimum. 
It should convert the Space Station into a space platform, to be 
visited but not inhabited. And it should use the savings from these 
actions to fund development of a new launch vehicle. I have enormous 
confidence in NASA's ability to achieve a vital and productive space 
program, including both human and automated missions. But to achieve 
that goal, it must do the right thing. That means phasing out the 
Shuttle. It is a death trap and a budgetary sink hole. NASA must 
develop a stable of launch vehicles that will open up the promise of 
space.
    I believe that we should send people into space only when they have 
something to do there commensurate with the risk and cost of sending 
them. Given the liabilities of the Shuttle, I do not know of any 
mission that now meets that criterion.
                                 ______
                                 

                        Discover, November 1985

                    THE SHUTTLE, TRIUMPH OR TURKEY?

                             BY ALEX ROLAND

    The American taxpayer bet about $14 billion on the Shuttle. NASA 
bet its reputation. The Air Force bet its reconnaissance capability. 
The astronauts bet their lives. We all took a chance.
    When John Young and Robert Crippen climbed aboard the orbiter 
Columbia on April 12, 1981 for the first Shuttle launch, they took a 
bigger chance than any U.S. astronauts before them. Never had Americans 
been asked to go on a launch vehicle's maiden voyage. Never had 
astronauts ridden solid-propellant rockets. Never had Americans 
depended on an engine untested in flight.
    Next to the orbiter was an external tank holding 1.3 million pounds 
of liquid oxygen and liquid hydrogen, flanked by booster rockets 
containing two million pounds of solid propellant. Beneath Young and 
Crippen were the three main engines, which had failed with alarming 
regularity on the test stand. The escape system that would separate 
them from this pyrotechnic nightmare should the engines fizzle again 
had been scrapped--to save money.
    The tiles that would protect the spacecraft from the consuming heat 
of re-entry had fallen off by the dozens on Columbia's comparatively 
gentle flight to Cape Canaveral atop a 747. None of them had been 
subjected to the rigors of a launch, when six million pounds of thrust 
would accelerate the Shuttle from zero to 4,000 feet per second in 
about a minute and a half.
    If the tiles stayed on, they would begin to do their work as the 
Shuttle, traveling at 17,500 m.p.h., re-entered the atmosphere. At 50 
miles up heat would begin to ionize the air molecules flowing around 
the vehicle, blocking communications and engulfing the spacecraft in a 
fireball that one astronaut has likened to the inside of a blast 
furnace. The orbiter, again provided the tiles stayed on, would pass 
out of this inferno at about 34 miles up, slowed now to 8,200 m.p.h., 
but still flying nose up, ``with the glide ratio of a pair of pliers,'' 
as a NASA engineer put it. Finally, it would nose over and pass through 
20,000 feet on a 22-degree glide slope, about seven times steeper than 
the normal angle for a commercial aircraft. If all went well, the 
Shuttle would flare out at about 2,000 feet and touch down on the 
runway moving at something like 200 m.p.h., five to ten percent faster 
than the supersonic transport, the fastest-landing commercial airplane. 
And the Shuttle would have to land on the first pass: the two jet 
engines that were to give it a fly-around capability had been 
jettisoned during development.
    Tom Wolfe assures us that astronauts thrive on this sort of risk. 
And, indeed, Young and Crippen came up winners in their gamble. But 
what of the American people? Has their bet on the Shuttle paid off ? 
And what of NASA and the Air Force? It's on these questions that any 
assessment of the success of the American Shuttle program turns.
    And any such assessment must begin with the four critical years 
from 1969 through 1972. Both NASA and the country got new chief 
executives in 1969. Richard Nixon, an old friend of the space program, 
moved into the Oval Office determined to end the war in Vietnam, to 
restore domestic tranquillity, and to bring the federal budget under 
control. Thomas Paine became NASA administrator, determined to parlay 
the first moon landing in July 1969 into a mandate for NASA to take 
``the next logical step'' in space. Paine envisioned himself as a 
latter-day Horatio Nelson, head of a ``band of brothers'' whom he 
encouraged to ``swashbuckle'' and ``buccaneer'' with him on the high 
seas of space. These true believers saw the Apollo landing as the 
sparkling achievement of a decade gone sour. It required an encore of 
even greater scope and daring. Nothing less than a manned mission to 
Mars would do.
    Nixon might publicly call the voyage of Apollo 11 ``the greatest 
week in the history of the world since the Creation,'' but he wasn't 
about to mortgage his administration and a distressed U.S. economy to a 
commitment that would look like an imitation of John Kennedy's famous 
man-on-the-moon proposal of 1961. Nixon appointed a Space Task Group, 
chaired by Vice President Spiro Agnew, to lay out the options. Agnew 
quickly signed on with the band of brothers: he came out for the Mars 
mission, a manned space station in earth orbit, a Space Shuttle to 
ferry men and materials to the station, and a ``tug'' to move things 
around in space. His report presented choices of pace and sequence, but 
they all ended up on Mars.
    Congress went into orbit, and Nixon went underground. Some liberals 
in both houses, claiming that the $25 billion spent on Apollo could 
have been put to better use in social programs on earth, assailed the 
Mars mission as the pipe dream of a bureaucracy gone mad. Many 
officials in the administration agreed. Nixon himself withdrew from the 
debate and let his subordinates fight it out.
    Bereft of presidential support, NASA came down to earth--fast. 
First it abandoned the Mars mission, except as a long-term goal. Then 
it abandoned the Space Station. Finally, it settled on the Space 
Shuttle, a re-usable spacecraft designed to reduce by two orders of 
magnitude the cost of placing cargo in orbit.
    The notion of re-usable spacecraft dates back to the 1920s in 
Germany. The U.S. was, in fact, moving in that direction with the X-
series aircraft of the 1950s--until Sputnik set off the space race. The 
Soviets had used a modified intercontinental ballistic missile to 
launch Sputnik; the U.S. responded in kind, launching its first space 
shots and even the early manned missions of Mercury and Gemini on 
military rockets. Soon a stable of civilian launch vehicles was 
developed, dominated by the mighty Saturn, which could put more than 50 
tons of payload into low earth orbit.
    But all these launch vehicles were throwaways. They boosted one 
spacecraft into orbit and then fell back to earth to incinerate in the 
atmosphere. They were also expensive; a Saturn cost $185 million 
dollars. If Paine and his band of brothers were to swashbuckle in the 
``new ocean'' of space, as Kennedy had called it, they had to find a 
cheaper way of getting out to sea.
    The most logical solution was a re-usable launch vehicle to Shuttle 
men and cargo to and from orbit. There were several varieties of these. 
Those that received serious consideration in the U.S. would lift off 
vertically like rockets and fly back horizontally like airplanes. The 
simplest was the single-stage-to-orbit vehicle, which would carry all 
the fuel, engines, and aerodynamic features needed to power itself into 
orbit and fly back to earth. The two-stage fully re-usable Shuttle 
would consist of a spacecraft mounted atop a recoverable booster, both 
of which would be piloted, winged vehicles; the booster would power its 
cargo to near escape velocity and then glide back home. Finally, the 
partly re-usable Shuttle would have a returnable orbiter on an 
expendable rocket; you'd lose the rocket on each mission but you'd save 
the spacecraft.
    The relative appeal of these configurations depended on three 
variables: payload, launch rate, and development costs. The bottom line 
was cost per pound of payload in orbit. With expendable launch vehicles 
NASA had achieved rates of $500 to $1,000 per pound. In 1969 George 
Mueller, NASA associate administrator for manned space flight, set the 
tone for the post-Apollo era when he called for a Shuttle that could 
take off and land at major airports and place as many as 50,000 pounds 
of payload in orbit at costs approaching $5 a pound.
    Beyond those startling parameters, what kind of Shuttle would this 
be? Opinion within NASA ranged from a Chevy to a Cadillac. 
Swashbucklers at headquarters and elsewhere preferred a large Shuttle 
that would enjoy economies of scale and be capable of carrying the 
Space Station components of the future. They were seconded by officials 
of the Marshall Spaceflight Center in Huntsville, Ala., builder of the 
Saturn rocket. Marshall wanted a mandate to produce a large new engine. 
Flight specialists at the Manned Spaceflight Center in Houston knew 
that a smaller craft had more manageable aerodynamic characteristics on 
re-entry and landing. Each of these groups contributed to the designs 
that NASA ordered from contractors.
    The din of competing proposals drowned out voices of caution within 
the agency. In a journal article now famous in NASA circles, A.O. 
Tischler, head of the chemical propulsion division of NASA's office of 
advanced research and technology, argued for an evolutionary approach 
to the next generation of launch vehicles, as opposed to the quantum 
leap favored by the band of brothers. The principal cost in space 
transportation, he said, isn't hardware but people. The salaries of the 
30,000 people NASA employed at the Kennedy Space Center were almost 
half a billion dollars a year, imposing an overhead cost of about $500 
per pound on all launches. Add to that the personnel costs at mission 
control in the Johnson Space Center, at the tracking and telemetry 
stations around the world, and at all the other NASA facilities, and 
the cost of a manned mission in space was higher than the projected 
costs of the Shuttle, regardless of which sort of hardware was 
developed. What was needed, Tischler insisted, was a better 
understanding of the cargo of the future, for the type of launch 
vehicle would be determined primarily by the volume of traffic. Before 
making ``a precipitous, total-immersion dive into the future . . . it 
would be shrewd to make sure first that we know how to swim,'' he 
argued. ``Once begun, there is no way back.''
    The true believers would have none of this. They looked at the same 
evidence and reached different conclusions. Tischler likened the 
propulsion problems of the Shuttle to those of the SST, which was then 
being hotly debated in the U.S.: ``If you fall short of design 
requirements, you have the option of flying part of your passengers all 
of the way or all of your passengers part of the way across the 
ocean.''
    Mueller looked at studies of the supersonic transport that 
predicted a market for 900 American SSTs in 1985, and extrapolated a 
market for 50 Space Shuttles. Obviously, something besides the data was 
driving perceptions of what to do next in space.
    The skeptics' views were driven by experience. As they had learned 
in the Apollo program, development on the cutting edge of technology 
always runs afoul of the unexpected. It would be better, they believed, 
to move along incrementally and not let predictions outrun data.
    Wernher von Braun likened this go-slow approach to life on a cruise 
ship, prompting Paine's injunction to swashbuckle. ``Buccaneers,'' said 
a NASA memorandum, ``stake out and create powerful outposts of 
stability, sanity, and real future value for mankind in the new 
uncharted seas of space and global technology.''
    The swashbucklers won out. Before Paine left NASA in 1970, the 
agency was leaning toward not just a Space Shuttle, but a Cadillac of 
Space Shuttles. A fully re-usable orbiter, about the size of a DC-9 
airliner, would be launched atop a first stage that could also be flown 
back for re-use. A new engine producing 400,000 to 550,000 pounds of 
thrust would be developed for use on both vehicles. The orbiter would 
have a life of 100 missions with only minor refurbishment between 
flights, comparable to normal operations for commercial jets. It would 
carry a cargo weighing 65,000 pounds and measuring 15 feet in diameter 
and 60 feet in length. It would be able to land on a conventional 
runway and fly again in two weeks. The price tag was $10 billion to $14 
billion for a vehicle to be ready in the mid-l970s.
    The public attack on this plan sprang first from Capitol Hill. 
Senators Walter Mondale, William Proxmire, Clifford Case, and Jacob 
Javits warned their colleagues that the Shuttle was a cat's-paw for a 
``manned space extravaganza'' that would cost between $20 billion and 
$25 billion. They cited distinguished space scientists like James Van 
Allen and Thomas Gold, who said the U.S. had no compelling need or use 
for such a vehicle, which they believed would drain money from other, 
worthier space activities.
    Joseph Karth, chairman of the House subcommittee on space sciences 
and applications and a NASA supporter, wondered if the proposed Shuttle 
was technically feasible. ``This is going to be more difficult than 
most people on the Hill suspect or NASA has led us to believe,'' he 
said. ``And anyone who tells you this can be done for six or eight 
billion dollars is out of his mind.''
    These critics were drowned out by colleagues scrambling to get 
Shuttle business for their districts or states. While few congressmen 
grasped the technological complexity of the program, all of them 
readily understood its pork barrel potential.
    The critics never had a chance, but they did wring some important 
commitments from NASA. Most had to do with cost, which soon became the 
program's overriding concern. During 1970, the agency brought the 
maximum price down from $14 billion to less than $10 billion, and 
promised that even this sum would be amortized within a decade by 
cheaper launches. In short, the Shuttle would pay for itself.
    Still, it was left to the Office of Management and Budget to do 
most of the moderating of NASA's lavish planning. Few OMB officials 
believed the U.S. needed a Shuttle, and surely not the one NASA had in 
mind. But the key man at OMB, deputy director Caspar Weinberger, 
disagreed. He wanted to proceed with a Shuttle, but he let his staff 
negotiate NASA down to a cheaper model. In mid-1971 OMB informed NASA 
that its annual budgets during Shuttle development couldn't exceed the 
1971 level of $3.2 billion. That allowed for a Chevy, and a stripped-
down one at that.
    But the Air Force refused to ride in a Chevy, and Air Force 
endorsement of the Shuttle carried great weight in Congress, in the 
White House, and at OMB. To keep that endorsement, NASA had to retain 
an expensive set of options, including the 65,000-pound payload 
capacity, an inertial upper stage for placing satellites in high earth 
orbit, and a cross-range capability of 1,100 miles. (This meant that 
the craft had to be able to fly 1,100 miles right or left of its space 
trajectory on re-entry, which would give it the ability to land from 
almost any orbit. Only a delta-winged vehicle could practically provide 
that flight characteristic. The simpler, straight-winged vehicle NASA 
preferred could not.) But while the Air Force insisted on these 
features, it refused to pay for them. NASA was caught in a cost squeeze 
from which there seemed no escape.
    At the insistence of OMB, NASA turned to a think tank for help with 
its financial woes. It chose Mathematica, Inc., headed by Princeton 
economist Oskar Morgenstern. Using data provided by prospective Shuttle 
contractors, Mathematica concluded, just as NASA wanted, that the new 
vehicle would pay for itself--if it had a launch rate of more than 30 
flights a year, a very conservative estimate in those heady times.
    The Mathematica report strengthened NASA's hand, but it didn't 
carry the day. Critics at OMB and the White House still doubted that 
the Shuttle was worthwhile. In the closing months of 1971, Shuttle 
designs popped up and fell like ducks in a shooting gallery. This one 
was too expensive. That one would take too long to develop. The next 
one failed to meet the cross-range requirements of the Air Force. A 
climactic meeting was arranged with Weinberger and OMB director George 
Shultz. NASA Administrator James Fletcher came prepared to trade away 
the payload capacity that NASA and the Air Force wanted. He was amazed 
to learn that Nixon and his domestic policy adviser, John Ehrlichman, 
cognizant of both the upcoming 1972 election and the boost the Shuttle 
would give the slumping aerospace industry, had decided to approve the 
Shuttle with whatever payload bay NASA felt necessary.
    From this war of wills emerged a Shuttle that no one had willed--
except perhaps the Air Force. Congress, OMB, the Air Force, and NASA 
had all pulled in different directions: Congress toward cost recovery, 
OMB toward low development costs, the Air Force toward operational 
capabilities, and NASA toward a future of manned space flight. Instead 
of a horse, NASA got a camel--better than no transportation at all and 
indeed well suited for certain jobs, but hardly the steed it would have 
chosen.
    Fletcher rushed off to San Clemente to join Nixon at a press 
conference announcing the decision to go ahead with the Shuttle and 
revealing its configuration. Nixon promised the American people that 
the Shuttle would ``revolutionize space transportation'' and ``take the 
astronomical cost out of astronautics.'' Fletcher promised that ``by 
the end of this decade the nation will have the means of getting men 
and equipment to and from space routinely, on a moment's notice, if 
necessary, and at a small fraction of today's cost.'' The two men posed 
for reporters with a model of the Shuttle. But it was the wrong 
Shuttle. Fletcher had taken with hun an earlier version, not the one 
that was eventually built. Plans called for a single-stage, only partly 
re-usable Shuttle, fed by an expendable external tank.
    In a curious piece of technical inconsistency, NASA promised two 
different costs for orbiting payloads. Fletcher announced that the new 
Shuttle would put payloads in orbit for $100 a pound, but he also 
claimed a cost of less than $10 million dollars a flight, which yields 
a cost of something more than $150 a pound. Both figures were dependent 
on a launch rate of 60 flights a year by 1985 and a two-week turnaround 
time for refurbishing the orbiter. The first orbital test flight was 
projected for March 1, 1978. The total development cost was put at $5.5 
billion, subsequently scaled down to $5.15 billion, with a 20 percent 
ceiling on overruns. This was about half the development cost NASA had 
estimated for its fully reusable Shuttle.
    NASA had gotten out of its bind by trading operational costs for 
development costs. Except for a new engine, the launch vehicle would 
rely heavily on proved technologies. An expendable external tank and 
recoverable solid boosters would help keep development costs below the 
ceiling set by OMB, although they would raise the cost of each launch. 
But Mathematica had told NASA it would break even at 30 or more 
launches a year, and it was expecting 60 a year by 1985. There seemed 
to be plenty of cushion. So NASA promised all things to all men.
    Then it developed a management technique to match. ``Success-
oriented management'' is a euphemism for betting on the come. You 
assume everything will work as designed, so you test only at the end, 
when the entire machine is put together. This not only saves the time 
that would otherwise be spent on intermediary tests; it also creates an 
aura of confidence. No tests, no failures--and absence of failure is 
success.
    A version of this technique had been used in the Apollo program. 
All-up testing, as it was called then, delayed the final check-out of 
the three stages of the Apollo launch vehicle until they were mated on 
the pad at Cape Canaveral. It succeeded largely because expensive 
redundancies were built into Apollo and problems were drowned in money. 
The Shuttle had no room for such luxuries.
    For a while success-oriented management seemed to work. The first 
Shuttle orbiter, named Enterprise in deference to Star Trek 
enthusiasts, rolled out within a year of its scheduled completion date. 
No major shortcomings had come into public view, and between 1974 and 
1977 NASA had even absorbed more than $300 million in OMB cut-backs in 
Shuttle funding.
    Behind the scenes, however, normal development snags were taking 
their toll, and NASA's reduced budget meant there was no money to 
prevent these snags from becoming big problems. Inevitably, the weight 
of the launch vehicle rose. Something had to go. Two escape rockets on 
the orbiter were jettisoned, leaving the astronauts locked onto the 
launch vehicle during lift-off. The auxiliary jet engines and their 
fuel tank were scrapped, meaning that the Shuttle would have no fly-
around capability. A number of other features went by the boards, and 
with each deletion NASA moved farther away from the spacecraft it had 
envisioned.
    The public and Congress knew little of this. About the only public 
controversy was stirred by an April 1977 report by the House Committee 
on Appropriations. Among other things, it criticized NASA and the 
Rocketdyne Company for deciding to proceed with production of the Space 
Shuttle main engine (SSME), a decision the committee felt might have 
been influenced ``more on contract scheduling and costs than the 
maturity of the design.'' Indeed, during 1977, the SSME began to 
experience an ominous series of turbopump failures.
    But in August of that year, the public watched Enterprises's first 
test flight largely unaware of the problems mounting behind the scenes. 
The orbiter lifted off its 747 carrier with grace and conviction at 
20,000 feet and glided down to a flawless landing at Edwards Air Force 
Base. It looked like another virtuoso performance by NASA, just what 
the public had come to expect from the folks that had given it Apollo.
    Then came 1978 and more engine failures. New rocket engines 
routinely have taken more time and money to develop than expected and 
have been full of bugs. But they usually end up delivering more power 
than specified. The development of a new engine was a curious risk for 
NASA, and it was probably taken mainly to give the Marshall Space 
Flight Center something to do. NASA compounded the risk by betting that 
its new engine would deliver 109 percent of its rated capacity. In a 
bargain-basement development program this gamble never had a chance. 
When the Shuttle engines first went on the test stand, they couldn't 
deliver even 100 percent of their rated capacity, but weight growth in 
the Shuttle demanded the full 109 percent if the craft was to perform 
its mission.
    The engine was simply too advanced to work to full capacity the 
first time around. In 1978, NASA couldn't get one to survive so much as 
a run-up on the test stand. In five tests, four different engines and 
one turbopump were damaged, resulting in four months of down time and 
$21 million in repairs and modifications. By the end of the year, the 
illusion of NASA's infallibility was in tatters.
    But its troubles were just beginning. Earlier manned spacecraft had 
solved the problem of re-entry heating with ablative thermal surfaces, 
materials that eroded during re-entry and carried the heat with them. 
Obviously this wouldn't do for a craft that was to fly 100 missions. 
NASA turned to re-usable ceramic tiles, for which it set breathtaking 
performance standards. The insulation not only had to weigh just 1.7 
pounds per square foot--the highly advanced Apollo shielding had been 
3.9 pounds per square foot--but also had to fit the irregular contour 
of the Shuttle body, withstand temperatures ranging up to 2,750 
degrees, and be cheap.
    Tiles made of rigidized silica fibers with borosilicate glass 
coating met all these specifications. Some 31,000 of them, in black 
high-temperature and white low-temperature versions, were ordered to 
cover the Shuttle fuselage save the areas of highest and lowest re-
entry heat. The difficulties arose not with the insulating material but 
with placing the tiles on the spacecraft. Each one had to be 
individually designed, molded, machined, and applied to ensure that it 
met the exacting tolerances set by NASA: for example, the gaps between 
tiles had to range from 0.025 to 0.075 of an inch.
    NASA and Rockwell International, the contractor tiling the Shuttle, 
badly misjudged the task. Putting the tiles on Columbia, the first 
orbiter scheduled to fly in space, ended up taking roughly 670,000 
hours, or about 335 man-years. The craft still lacked 10,000 tiles when 
Rockwell shipped it to Cape Canaveral in March 1979. The missing tiles 
were air-shipped to Florida, where a motley team of Rockwell employees 
installed them at the rate of less than two tiles per man per week. At 
various times, college students, a few tomato pickers, hippies, and 
assorted smokers of God-knows-what answered the Rockwell call for 
labor. Despite NASA's disclaimers, it seems few had any incentive to 
work well or quickly. Some wanted the job to go on indefinitely--and it 
almost did.
    Then NASA concluded that the glue holding the tiles in place 
provided ``negative margins of safety.'' So 25,000 of them were 
``densified''--that is, removed and reglued with a ``densified bonding 
surface.'' What wasn't known was that the waterproofing material 
applied overall was quietly dissolving the glue beneath the tiles that 
weren't densified.
    While public and congressional attention shifted between the comic 
opera of tile installation and the Chinese fire drill of failing 
engines, still another critical--although less noticed--shortcoming 
precluded launch of the first Shuttle in 1979, or even 1980. Kenneth 
Cox, who was in charge of navigation, guidance, and control for the 
Shuttle, says he couldn't have approved the Shuttle for flight in those 
years ``without significant risk.'' He simply didn't trust the data he 
was getting from computerized flight simulations. This would be the 
first spacecraft to carry a crew on its maiden voyage. The astronauts' 
safety would depend heavily on the reliability of computer models and 
wind tunnel experiments. But computers are only as good as the data and 
assumptions that go into them, and no wind tunnel in the world was 
capable of duplicating the flight regime of the Shuttle. This craft had 
to go from re-entry at 25 times the speed of sound to landing, one hour 
later, at about 200 m.p.h. Separate wind tunnels could re-create 
segments of that descent, but the tunnels had different characteristics 
and functioned at different Reynolds numbers. In other words, you could 
find a slow wind tunnel to test a full-scale orbiter, and you could 
find a fast tunnel to test a very small model of the Shuttle, but until 
the Shuttle itself flew you could never be sure that the test results 
were exactly comparable.
    The Shuttle was known around NASA as the Flying Brickyard; it was 
Cox's job to ensure that he had anticipated and built into the flight 
control system all the characteristics of a brickyard traveling at Mach 
25. And he had to program the five on-board computers to check each 
other, identify mistakes, and overrule errant commands. ``If the 
computer fails,'' said Cox, ``you've bought the farm.'' All this took 
time. A lot of time.
    Development dragged on past the original launch date of March 1, 
1978 and into 1979. Congress began to ask embarrassing questions. Talk 
was heard in Washington of abandoning the Shuttle altogether, although 
most observers agreed that it had really proceeded too far for that. 
Besides, whatever doubts there were about the floundering project were 
obscured by a coating of SALT. The Air Force would soon be dependent on 
the Shuttle to launch its space missions. The most important--and the 
most secrecy-shrouded--of these involved the orbiting of reconnaissance 
satellites. If Shuttle operations were delayed further, the Air Force 
faced a hiatus between the use of its last expendable launch vehicles 
and the availability of the Shuttle. The Air Force, and indeed the 
entire intelligence community, dreaded this prospect. Perhaps more 
important, so did Jimmy Carter, who in the spring of 1979 was 
concluding the SALT II treaty. He would have to convince a skeptical 
Congress that the U.S. had the reconnaissance capability to verify 
Soviet compliance. There could be no gap in launch vehicle 
availability.
    The administration asked for more money for NASA in 1979, and 
Carter made it clear that he wanted the Shuttle to get whatever funding 
was necessary in the coming years to put it back on schedule. Congress 
went along because it had already poured more than $10 billion into the 
project and because the military implications were so serious. In 1979, 
General Lew Allen, the Air Force Chief of Staff, said, ``Whatever else 
the Shuttle does and whatever other purposes it will have, the 
priority, the emphasis, and the driving momentum now has to be those 
satellite systems which are important to national security.'' For the 
first time since 1971, cost was no longer the main determinant in 
Shuttle development.
    NASA paid a price for this reversal of fortunes: the myth that the 
U.S. had an independent civilian space program was irretrievably 
shattered. In Fiscal Year 1980 the military budget for space activities 
exceeded NASA's for the first time since the beginning of the Apollo 
program. With the Pentagon now piping the tune on Shuttle development, 
some observers wondered aloud if an independent civilian space agency 
could survive.
    The infusion of money nevertheless had the desired effect. The 
first Shuttle flew on April 12, 1981, somewhat reviving NASA's 
reputation and quieting public criticism. Since that first launch, some 
three years late, the operational record of the Shuttle has been 
improving steadily, if slowly. After four successful test missions, the 
first operational flight went up on Nov. 11, 1982, and was followed by 
four missions in 1983 and four in 1984. Eight flights are scheduled for 
this year--of which six had taken place when DISCOVER went to press--
and 14 next. On the basis of this record, NASA has sought and won 
Ronald Reagan's approval to begin development of the Space Station, the 
orbiting outpost the Shuttle was designed to serve.
    The record of the Shuttle so far is decidedly mixed. The bad news 
is that it's not up to specifications. The solid rocket boosters came 
in over their design power, but the troublesome main engines have yet 
to achieve the 109 percent of thrust NASA anticipated. This shortfall, 
combined with weight growth on the launch vehicles, has restricted 
payload capacity to 47,000 pounds instead of the specified 65,000. NASA 
is developing a liquid boost module to add thrust on lift-off.
    The turn-around time between the first and second Shuttle launches 
was four months. The gap is now down to about two months, but the two 
weeks originally projected seems impossible. Most Shuttle flights have 
landed at Edwards Air Force Base, where the dry lake bed provides a 
cushion against the erratic behavior of the landing gear. There are no 
plans to land on commercial runways; they are simply too short. The 
shock and vibration of launch are taking a far higher toll on the main 
engines than anticipated; it seems unlikely that any of them will 
survive NASA's goal of 50 launches.
    The first flights of Columbia, Challenger, and Discovery were late; 
Atlantis was to be launched in early October. Many follow-on missions 
have been late as well; five have been scrubbed altogether. Some 
satellites launched from the Shuttle have been either lost entirely or 
placed in erroneous orbits, requiring depletion of their limited fuel 
supplies to set them right. These mishaps weren't the fault of the 
Shuttle, but the complete space transportation system has yet to 
achieve the reliability of the expendable launch vehicles it replaced.
    The good news is similarly compelling. Most of the shortcomings are 
under control and getting better. The orbiter and the external tank are 
getting lighter. Launches are more regular. Turn-around time is 
decreasing. The bugs that always infest new technology are 
disappearing.
    Even with the bugs, the Shuttle is the most sophisticated 
spacecraft ever flown, a generation ahead of the rest of the world and 
the envy of all spacefaring nations. Its main engines have the highest 
thrust-to-weight ratio of any ever developed; its thermal protection is 
the lightest and most efficient ever flown. The Shuttle has retrieved 
satellites. It has served as a platform for astronauts repairing 
satellites in place. It has provided capacity for scientific 
experiments on a scale that dwarfs the capabilities of Apollo and the 
Soviet Soyuz. The Shuttle has more versatility and potential than any 
other spacecraft ever flown, and it has also delivered on the promise 
to routinize space flight.
    Have the taxpayers, then, gotten their money's worth? Ah, that's 
another question. One answer is undoubtedly no. Another is surely yes. 
The choice between them is philosophical and political more than it is 
technical.
    Cost has driven the Shuttle from the outset. Cost dictated the 
shape and pace of its development. Cost remains its only compelling 
raison d'etre. And cost is the principal criterion by which it should 
be judged.
    Judged on cost, the Shuttle is a turkey. The problem isn't that it 
cost too much to develop, as OMB had feared, but that it costs too much 
to fly, which no one seems to have anticipated. The Shuttle cost 
something like $14 billion (in 1985 dollars) to develop, well within 
the budget and the 20 percent fudge factor predicted by NASA in 1972.
    But NASA also promised then to amortize the Shuttle's development 
costs, whatever the total. That notion was abandoned years ago, and 
with it went the Shuttle's main initial selling point. By the time NASA 
went back to Congress for more money in 1978, it had ceased to claim 
that the investment in the Shuttle's development would ever pay off. 
The Shuttle simply can't fly cheaply enough to turn a profit. No one 
knows exactly how much a flight costs, but it's nothing like the $10 
million that Fletcher predicted in 1972. Nor does payload fly at $100 
per pound. In 1985 dollars, these predictions convert into $25.8 
million per launch and $258 per pound. Earlier this year the 
Congressional Budget Office suggested five ways to compute the costs of 
a Shuttle flight, and they ranged from one and a half to six times 
these predictions.



     Accounting Meth.          Cost per Launch        Cost per Pound*

Short-run marginal cost     $42 million            $646/$893
Long-run marginal cost      $76 million            $1,169/$1,617
Average full operational    $84 million            $1,292/$1,787
 cost
Average full cost less      $108 million           $1,662/$2,298
 development
Average full cost           $150 million           $2,308/$3,191

*65,000 pound payload/47,000 pound payload

    In 1972 Fletcher pegged the cost per pound of payload on a Saturn 
rocket at $1,677 (in 1985 dollars). So if and when the Shuttle gets up 
to its rated payload capacity of 65,000 pounds it will cost, under the 
most reasonable accounting method (average full cost less development), 
about the same per pound as an Apollo launch 13 years ago.
    Bad as it is that the American taxpayer won't be reimbursed for 
Shuttle development, it's worse still that more development money is 
being poured into the Shuttle to bring it tip to specs. Worst of all, 
even when these investments are written off, every Shuttle flight in 
1986 will cost the American taxpayer a minimum of $50 million. NASA 
Administrator James Beggs reported earlier this year that NASA was 
budgeted on average $121 million for each of the 14 flights scheduled 
in 1986, four and a half times the amount predicted by Fletcher in 
1972. Since the commercial rate to hire a completely dedicated Shuttle 
payload is $71 million, the American taxpayer would subsidize Shuttle 
operations next year to the tune of $700 million if all 14 flights were 
made and each earned its full commercial rate. In fact, fewer than half 
the flights will earn the full commercial rate. Americans can look 
forward to subsidizing all Shuttle missions--including foreign, 
commercial, and Air Force flights--for the foreseeable future. Like old 
John Henry, each Shuttle flight hauls as many as 24 tons and what does 
it get? Another day older and deeper in debt.
    Why not raise Shuttle fees? Simple. Ariane. While the U.S. was 
abandoning expendable vehicles and developing the Shuttle, the European 
Space Agency went about developing its own launch vehicle. Now Ariane 
is operational and luring customers away from the U.S. The Shuttle and 
Ariane are both heavily subsidized, launching spacecraft for all 
corners at losses amounting, in the U.S. at least, to hundreds of 
millions of dollars annually. (Ariane has no fixed pricing policy, so 
outsiders can't be sure just what it charges for any given flight or 
how much it loses.)
    Ariane handcuffs the U.S. If America continues to subsidize 
flights, it increases the loss to the taxpayer. If it raises prices, it 
will lose business--even U.S. business--to Ariane, which already 
includes among its customers GTE and Satellite Business Systems, which 
is jointly owned by IBM and Aetna Life & Casualty. This would reduce 
the number of Shuttle flights, which would increase the cost of each 
flight, which would also increase the net loss to the taxpayer. In 1973 
NASA envisioned 60 Shuttle flights a year by the sixth year of 
operation. Mathematica pegged the break-even point at more than 30 
flights a year. Now NASA hopes to have 24 flights a year by the end of 
this decade--but don't bet on it.
    In short, the Shuttle is an economic bust, with no prospect of 
making money. It's the SST of space, a remarkable piece of technology 
that costs more than it's worth in the marketplace.
    But cost, say Shuttle supporters, isn't the best criterion for 
judging the spacecraft. In fact, they contend, the cost constraints 
that have crippled the program from the outset account in large measure 
for the Shuttle's development problems and disappointing operations. 
Retired NASA engineer James Nolan goes so far as to say that ``the 
American people got the Shuttle they deserved.'' Others are more 
circumspect. New technology, they argue, always entails the fits and 
starts that the Shuttle has experienced, but the development must be 
done. The Europeans, the Japanese, even the Chinese--not to mention the 
Soviets--are moving aggressively into space, and if the U.S. wants to 
remain competitive it must invest in the future.
    Furthermore, supporters contend, new uses for the Shuttle are just 
around the corner. It has unique capabilities that may be very 
important in the commercialization of space. Orbital manufacturing of 
crystals, pharmaceuticals, and space structures can take advantage of 
near-zero gravity to achieve results impossible on earth. Even tourism 
in space is now within reach; the Hyatt chain already has a commercial 
featuring a future hotel in orbit. The prospects, say the Shuttle 
faithful, are limited only by our imagination. Mueller claimed in 1969 
that ``the Space Shuttle, by its very existence and economics, may 
generate the traffic it requires to make it economical.''
    That kind of logic tends to get circular and metaphysical. You 
would only build a Shuttle if you had some reason for sending men into 
space, but you can't know all the masons until they get there. 
Christopher Columbus is the classic example of this phenomenon. 
According to this line of thinking, you simply must bet on the unknown 
occasionally, for even when predictions are wrong, the unexpected may 
prove a greater blessing.
    To date the Shuttle has found no gold in orbit. Nor is it likely 
to. A second-generation Shuttle may be necessary for the space 
transportation system to become truly economical, but that's not to be 
the next step in space. When the Shuttle went operational in 1982, NASA 
began to argue that the orbiter opened the way to development of the 
Space Station. The purpose of the Shuttle in the first place had been 
to reduce the prohibitive costs of resupplying the Space Station. Of 
course, it hasn't done that, nor does it have any prospects of doing 
that. The real cost of putting a pound of payload in orbit is at the 
same prohibitive level as 16 years ago. But rather than make good on 
its promise, rather than develop a second-generation Shuttle that might 
prove profitable, NASA is pressing on with the Space Station.
     Does Shuttle development, then, have anything to teach the U.S. as 
it embarks on the development of a space station? It surely can't tell 
Americans what will happen, but it can offer a handful of cautionary 
thoughts. First, as Tischler warned in 1969, ``the desire of the 
aerospace industry, which includes members of government agencies, to 
build exquisite and innovative equipment does not of itself justify 
spending the taxpayers' money.'' Second, beware of civil servants, 
however well intentioned, who propose to swashbuckle with the public 
purse. Third, high technology designed to cost will end up costing. And 
finally, progress is in the eye of the beholder.

    Senator Brownback. Good statements by all.
    Let's run the clock at 7 minutes and then we can bounce 
back and forth and probably go a couple of rounds here.
    Ms. Smith, do we know what the cost per Shuttle flight is 
now?
    Ms. Smith. That's not an easy question to answer. It 
depends on how you look at it. There are two ways that those 
costs are usually described. One is called ``average costs,'' 
and the other is called ``marginal costs.'' The average costs 
essentially take the annual Shuttle budget and divide it by 
however many flights there were that year. So five flights or 
six flights, whatever, you just do the math; it comes out to 
$400 million, $500 million a year.
    Senator Brownback. $400 to $500 million----
    Ms. Smith. $400 to $500 million per flight, I'm sorry.
    Senator Brownback.--per flight.
    Ms. Smith. Yes.
    The marginal costs are the additive costs of flying an 
additional Shuttle mission in a given year, or the costs that 
you would save if you did not fly a particular Shuttle mission. 
So it doesn't account for the infrastructure cost, basically, 
of the Shuttle program.
    NASA currently calculates the marginal costs of a Shuttle 
flight at $115 million a year. That's in full cost accounting.
    Senator Brownback. Okay.
    Mr. Chase, what should the vision be as to why we are going 
to space? If you were to articulate that in a way that the 
American people would identify with, what would that vision be 
as to why we should be going to space?
    Mr. Chase. I think the traditional reasons that have been 
put forward--spin-offs and the valued education and the value 
for international cooperation--those are all benefits, but 
those aren't the overall rationale for going to space. I don't 
think any one of those can justify the expenditures and the 
programs.
    I think there's something much bigger at stake here, and 
that is, if you look historically, societies that have expanded 
their frontiers are the ones that have prospered, the ones that 
have the energy and the drive within that society to do other 
things, whether it's economically or other areas of success 
within that society. And I think that as soon as the society 
begins to or stops exploring and stops opening that frontier, 
they begin to risk some long-term detrimental effects. That's 
not something you'll see in 5 or maybe even 10 years, but you 
have a long-term detrimental effect that will impact society. 
So I think that that's one of the motivating factors, that that 
is a hallmark of societies that are successful and are leaders 
in their world. So I think that's an important reason.
    Clearly, there are a lot of outstanding benefits to the 
motivation aspect in terms of motivating the next generation of 
explorers, the next generation of scientists and engineers, 
and, frankly, for that matter, the next generation of business 
leaders and lawyers and anyone else who may be engaged in that 
business or aspire to a higher calling.
    So there's a lot of reasons to go. I don't think there's 
any single reason that is a----
    Senator Brownback. But how would you articulate it to the 
American people? If we continue forward, this is billions of 
dollars annually, how would you articulate it?
    Mr. Chase. I think you would articulate it by saying that 
this is important to the future of our--not just our society, 
but even in some ways our civilization, to continue being a 
leader in the world. And it's important for their kids to have 
opportunities that they see a hope for the future.
    You know, there's not a lot that we look at that says, 
``Here's the vision for 10 years down the road. There's 
something hopeful that you may be able to step foot on another 
planet or another planetary body and have the chance to 
experience something that no human has experienced before, to 
have experiences that nobody's ever had before.'' I think that 
can be a very motivating factor for a child or even for someone 
today who is interested in that field.
    Senator Brownback. So it's to open space for the vision of 
humanity as always pressing forward?
    Mr. Chase. It really is. There are economic reasons, there 
are social reasons, but it's a continuous expansion of our 
frontiers and of our understanding of society and then 
obviously the benefits through technology that accrue to the 
society that's used to do that.
    Senator Brownback. Dr. Roland, how would you answer that 
question? What's the vision for why we should be pursuing 
space?
    Dr. Roland. There are two things. I think it is important 
to do exploration in space. But it's my very strong belief that 
any exploration that you want to do in space with our current 
technology, you will achieve far more with automated spacecraft 
than you will with people. Any mission you do in space costs 
ten times as much if you send people along. So if you want to 
go to Mars and explore, you can send 10 unmanned missions for 
the price of one manned mission. And the main purpose of the 
manned mission becomes simply returning the humans.
    I'm not saying that's an unimportant national goal. It is 
inspirational and exciting, but it's kind of a feel-good space 
program. And right now I don't feel very good about our space 
program.
    I think we get much more sustained payoff, and we have 
consistently over the last 40 years, from our automated 
spacecraft. We've spent two-thirds of our budget on manned 
space flight, and we're doing basically what we were doing 40 
years ago. We send astronauts up into low-earth orbit and they 
float around and come back. And it's our unmanned spacecraft--
the communications satellites, the applications satellites, the 
reconnaissance satellites, the deep-space probes--they're the 
ones that have given us all the payoff.
    So I think if we want to tell the American people that the 
space program is good for them, that's where we should be 
making our investment.
    Senator Brownback. If you based it on scientific discovery 
of what's taking place, you would stand by your previous 
comment----
    Dr. Roland. Absolutely.
    Senator Brownback.--and can you quantify that?
    Dr. Roland. Yes. I recommend to you an exercise. I tried a 
short time ago to find any scientific results from Shuttle or 
Space Station research that was written up in refereed 
scientific journals. It doesn't appear there, because it isn't 
important science. All the science that NASA gets published in 
the best journals is coming from the automated spacecraft.
    Now, the one exception to that is there are some human 
physiology experiments that are written up, but that's--again, 
it's sort of a circular argument. We're going to send people in 
space so they can learn to survive in space in case we ever 
find anything for them to do in space.
    Senator Brownback. Ms. Smith, what would your comment be 
about the scientific information that we're getting? Does it 
come more from the manned or from the unmanned launches?
    Ms. Smith. There is scientific information that comes from 
both human and robotic spaceflight. I do have to agree with Dr. 
Roland that it is difficult to point to some breakthrough 
scientific discovery that can be directly traced to the 
presence of humans in space. There have been many space 
stations, both on the American side and on the Russian side, 
and Shuttle flights and all sorts of other flights. They do 
gather a great deal of data about biology, which is useful if 
you are going to continue launching humans into space. They 
also learn things that can be applied here on Earth. So there 
are medical advances that other scientists say have developed 
because of the space program.
    But critics of the space program argue that those advances 
would have been made anyway, even if you had not been launching 
humans into space, and they might have been made sooner if you 
had not devoted the sums of money to the space program and you 
had devoted them to earth-based research instead.
    But there is scientific data that comes back from the human 
space flights, and there's a lot of data that comes back from 
the robotic flights.
    Senator Brownback. Mr. Chase, your response? And then I 
want to go to Senator Breaux.
    Mr. Chase. Well, I think the debate between humans versus 
robots is actually a little bit of a false argument. I think 
that any space program is a balanced approach. You have both 
human exploration and you have robotic exploration. There's no 
doubt that there are destinations in our solar system that a 
human will probably never, ever be able to set foot, and robots 
are going to be a critical role in that exploration.
    But there's also things that robots will never be able to 
do with current technology or even technology in the mid- to 
long-term future that humans will have to fulfill. There's a 
certain amount of interaction with the environment, the 
mobility, the dexterity, the response time that a human 
possesses. A robot can be sitting on the surface of a planet 
and not know what's sitting behind it unless it's turned that 
direction by an operator; and, even then, they may not know 
exactly what it is. It takes a human to get down there and 
interact with that object or that environment to understand 
what's going on.
    Now, the other thing that I think puts this in perspective 
is, I would proffer an exercise as well. I would challenge any 
earth-based scientist that does work in a laboratory and ask 
them, ``Would you be willing to substitute a robot for the work 
you're doing in your laboratory?'' And I dare say the answer is 
no, they would not be willing to do that, because they know 
they can achieve more with humans in that loop and in that 
capacity.
    Today we have the technology to replace humans to go to 
Antarctica with probes and robotic measuring systems. We don't 
do that. We could send probes to the bottom of the ocean, but 
we don't do that. We send humans. So there's a reason that 
scientists in the scientific arena have humans in the loop, per 
se, in those discoveries.
    Senator Brownback. Senator Breaux?
    Senator Breaux. Thank you, Mr. Chairman. I thank the panel 
for their testimony.
    Dr. Roland, are you saying that this particular Space 
Shuttle is defective, or do you think that any reusable Space 
Shuttle that is manned is not the proper approach? I mean, is 
this one uniquely defective in what you think, or do you think 
that if we did a VentureStar or a type of program which was a 
different type of reusable vehicle, that that could be okay, it 
could be a better way of doing it? Or do you just fundamentally 
think that the reusable manned space vehicle is not the right 
way to go?
    Dr. Roland. I think this one is uniquely defective, and I 
think it's conceivable that the reusable idea could still work. 
And I think NASA was fully justified in pursuing it. It seemed 
like a good idea at the time. What we underestimated was the 
wear and tear on the spacecraft that requires such an extensive 
amount of maintenance and wears out the spacecraft faster than 
we thought. That economic model doesn't work.
    Also, at the time, NASA was basing all its projections on 
an unrealistic economic model of how many flights there would 
be. And those two things together make this particular reusable 
not workable.
    And I think we just don't know if we can design and operate 
a robust reusable that will have a lifetime that will really 
make it worthwhile. It might be that there's some combination 
of the two where our orbiter is reusable but it launches on an 
expendable, and that the cost balance might show up there.
    I'm just encouraging them to take the experience we've 
gained from the Shuttle, which is not trivial, and design a 
better launch vehicle.
    Senator Breaux. How much of your concerns with this 
particular Shuttle are because of the way it is launched 
through the rocket type of launch as opposed to like a regular 
airplane, which would be a suborbital type of operation?
    Dr. Roland. Right, I think if we could build a small 
orbiter that could be launched from an airplane, at least 
theoretically that sounds much more appealing. Of course the 
whole problem is that when any launch vehicle lifts off the 
ground, it has to carry all the fuel it needs to get into 
orbit, so the enormous cost is in the first 100 feet and then 
it starts going down rapidly after that. So if we can develop 
another launch vehicle that'll get the orbiter up to a level 
where it's only a hop into space, then we have an entirely 
different technological model.
    Senator Breaux. Is it your understanding that NASA, at this 
point, really doesn't have any plans to look at an alternative 
type of vehicle and they're now planning to use this one 
through the year 2020?
    Dr. Roland. That's what they told us in the fall. We were 
waiting to see what they were going to do about the Shuttle 
fleet. And their solution was to try and prolong its life and 
defer, essentially, development of a replacement launch 
vehicle. And I think that's the great problem. I'm not opposed 
to the program they've designed in general or manned space 
flight in general. It's just that this is not the vehicle 
that's going to achieve our objectives for us.
    Senator Breaux. From your knowledge, what type of vehicle--
would be an option, and what would that option look like?
    Dr. Roland. I tend to think that we ought to separate cargo 
and people, and that we need a small orbiter to take people 
into and out of space. That's the vehicle in which we should 
invest all the safety and life-support systems, and we just 
make it as safe as we possibly can, but make it smaller, just 
to carry the people. Then we have separate automated launch 
vehicles; they can be either expendable or reusable launch 
vehicles, the heavy-lift vehicles, the trucks that carry the 
material up there. The astronauts meet them in orbit and do 
their business and then the astronauts come back safely. And 
then you have a vehicle that's not only a launch vehicle for 
the astronauts and much safer, but it's an emergency crew 
return vehicle, as well, and you solve two problems at once.
    Senator Breaux. So you're not really saying that we just 
shouldn't do manned space flights at all. You're just 
separating the vehicle that takes humans up from a separate 
vehicle that perhaps would be used for heavier payloads and 
would not necessarily have to have the extreme human safety 
precautions maintained.
    Dr. Roland. Yes, this is what we do with our expendable 
launch vehicles. This is what the Air Force does. You accept a 
certain amount, a certain probability of failure. In other 
words, if you get up to 95, 96, 97 percent success rate, it's 
economically infeasible to try and get that any higher, and so 
you accept an occasional loss of one of those launch vehicles. 
But we can't do that with people. And so we ought to separate 
those two functions have a much higher safety standard for the 
smaller and lighter vehicle just to get the people and down.
    Senator Breaux. Mr. Chase and Ms. Smith, can you comment on 
that? Mr. Chase, you were talking about how you need humans in 
space, but it seems like what Dr. Roland is really suggesting 
is that you would still have humans in space; you would just 
have a different vehicle for getting there and then you'd have 
a different vehicle for the heavier payloads that would be 
necessarily utilized in space. Do you have any comments on 
that?
    Mr. Chase. Yes, sir. Although I don't agree with Mr. 
Roland's contention on some of the lack of the value of the 
Shuttle at this present time, I think that we actually have a 
lot of areas of agreement in terms of where this ought to go. 
And some of the items that I outlined in my testimony are a 
three-stage approach that NASA is planning for their future 
space transportation needs. What NASA has finally realized, and 
the space community has realized, is that we can't take this 
jump in one bite, so to speak, in one step. We can't go just 
straight from the old system to a brand new system that is a 
single-stage to orbit that incorporates all the latest 
technology.
    What we've realized is that we have to do an evolutionary 
approach. And the evolutionary approach is we continue to use 
the Shuttle for the duration needed to finish the Space 
Station. The next step is, you do exactly what Mr. Roland 
mentioned, which is put a crew transfer system in place that 
can take the burden off of the Shuttle to transfer a crew to 
and from the Space Station and be used for future missions. And 
then the next stage is that crew transfer system could become 
part of a next-generation launch technology. So you have a 
three-pronged approach to this problem. And I do----
    Senator Breaux. Of course, the problem, at least in my 
information from NASA, is they're not thinking in that terms 
right now. We're talking about until year 2020 using the Space 
Shuttle as both a human delivery system as well as a cargo 
delivery system. And there's not a lot on the books right now, 
from the standpoint of looking at the next generation. It's 
just not even being started yet.
    Mr. Chase. They did have a restructuring of their Space 
Launch Initiative program, which was to address the next-
generation system. And out of that program is the orbital space 
plane and what they're calling next-generation launch 
technology, which is being done in conjunction with the 
Department of Defense.
    I think I mentioned in my oral testimony that that's an 
important relationship to develop, and I think it's important 
for this reason. The DoD has a very strong track record in 
developing X vehicles and test vehicles for their eventual 
systems. And I think that's important element that has been 
missing in some of NASA's efforts. We try to go too quickly to 
an operational system, or just do one X vehicle and all the 
technology is thrown into that one system. And I think a 
multiple approach, where we test technology on a variety of X 
vehicles and have the experience from DoD in doing that, will 
go a long way to solving that problem.
    Senator Breaux. Okay, those are good suggestions.
    Thank you very much, both of you.
    Senator Brownback. Let me ask you--you've got some good 
thoughts, but I want to hear--We hear a number of different 
schools of thought. There's been, I think, a beautiful public 
debate that's taken place since this last Shuttle disaster 
about doing more space probes. Everybody agrees we should be in 
space. Should we be doing more unmanned? More manned? Should we 
be going back to the moon and colonizing the moon? Should we be 
going to Mars and beyond? Great debate, and the sort of thing 
we really ought to be talking about in broad scale, and I'm 
delighted we're having that sort of discussion.
    Ms. Smith what is the rationale? If we were to say to the 
people that are most supportive of this, we need to go to the 
moon and establish a long-term presence, an exploration 
presence, on the moon, what's the major reason for us to do 
that?
    Ms. Smith. Well, there are advocates of returning humans to 
the moon that would say that you could use the lunar surface as 
a place for scientific observatories, you could put telescopes 
on the far side of the moon, you could mine the moon for 
helium-3 and bring it back to earth and use it for fusion 
reactors.
    Senator Brownback. I'm sorry, for what?
    Ms. Smith. Helium-3 and use it for fusion reactors. There 
are others who would like to put solar power systems on the 
moon and beam the energy back to earth. So there are a number 
of concepts out there for practical utilization of the lunar 
surface. And if you also wanted to commit to sending humans to 
Mars someday, then you might set up fuel production sites on 
the moon using the lunar materials to produce the fuel that you 
would need to go to Mars. So the visionaries in the space field 
lay out a number of scenarios as to why it is that you might 
want to go back to the moon.
    There are others, however, who feel that we've been to the 
moon--``Been there, done that,'' don't need to go back again. 
That we really need is a commitment to going to Mars. In fact, 
some of the Apollo astronauts who have been to the moon have 
that point of view. They see going out to other places in the 
solar system as part of this destiny to explore, and they feel 
that we need to move on from what we did in the 1960s and start 
a new quest to send humans to Mars.
    Senator Brownback. What's the purpose of going to Mars?
    Ms. Smith. Exploration. To set up settlements there. Again, 
to do scientific research, to do a lot of geological research. 
They make the argument that Mr. Chase was making earlier, that 
if you have humans on site, that they're much better at doing 
science than robots because they're adaptable. When you send a 
robotic probe to some distant destination, if you haven't 
programmed it with the information it needs, then it's not 
going to be able to adapt to changing circumstances, whereas 
people can.
    So those who argue in favor of sending people to Mars want 
the people there on site, because the feeling is that they can 
do better scientific exploration there. They can look at the 
geological sites and decide which rocks are the most important, 
as former Senator Schmitt did when he was on the moon in Apollo 
17, because he was a geologist and he was trained to do that. 
So people see that as, sort of, the added value of having 
people there, that you can get more bang for your buck even 
though the bucks are so much greater when you're including 
humans.
    Senator Brownback. The cost of doing an unmanned mission to 
Mars versus a manned mission to Mars, do we have any idea of 
what factor we're looking at?
    Ms. Smith. There are a number of ranges of cost estimates 
for sending people to Mars. There's a gentleman who's very 
enthusiastic about this, Bob Zubrin, who has very low cost 
estimates. I believe it's in the $10 billion range. And when 
NASA was last asked the question back when President Bush gave 
his speech in 1989, they came up with a program that was about 
$400 billion.
    The robotic probes--how expensive they are depends on how 
focused they are in their missions. But they're probably, you 
know, $100 million, something like that. It's a vast 
difference.
    Senator Brownback. Dr. Roland, give me your perspective on 
why we should or shouldn't go back to the moon or to Mars.
    Dr. Roland. If the moon were paved in diamonds, it would 
cost more to go get them than they're worth here on Earth. One 
of the reasons we haven't gone back to the moon is that we 
discovered nothing there worth going back for. It is true that 
you could do some science there and you could do some 
experiments, but nothing where the payoff is anywhere near the 
cost. And I think the same thing is true in Mars.
    This notion that humans, in situ, do better research than 
machines, I think is simply not true. I don't know of any 
particular activity that a human is going to do on Mars that a 
machine can't do. Remember, our machines are controlled from 
earth. We send them out, and we tell them what to do. We don't 
have to pre-program. We direct them around. We have them get 
samples.
    Twenty-five years ago, NASA could have sent an automated 
probe to Mars to take soil samples and bring them back. We 
could have it down in the Air and Space Museum now. And we 
haven't done those automated missions that we ought to be 
doing.
    I have no doubt that someday humans will go to Mars, and 
we'll probably go back to the moon, and we'll probably colonize 
the moon or Mars or some other place in space, but not with the 
technology that we have now. What we have now is a technology 
that allows us to do an enormous amount of scientific 
exploration, and that's being cut off while we float astronauts 
around in near-earth orbit. It's just an imbalance of our 
priorities.
    I agree that the space program has to have some balance of 
priorities, but throughout NASA's history it's been spending 
two-thirds of its money on manned space flight and we get very 
little payoff from that.
    Senator Brownback. Mr. Chase, I want to give you a chance 
to respond to any of those comments, please.
    Mr. Chase. I think that there's another avenue of this 
discussion that's worth having, as well, because I think that 
you can make the case that there are reasons to go back to the 
moon and go to Mars, and I also believe that we will be doing 
that at some point down the road. However, I think there's 
another consideration, which is it may be better for NASA to 
build capabilities that allow us to make decisions when we're 
ready to make those choices.
    For example, low-cost access to space is a critical part of 
whatever sort of mission you're planning, whether it's to 
launch a probe to do an environmental study of the earth, 
whether it's a military satellite, whether it's a mission to 
the Space Station, whether it's a mission to the moon or to 
Mars. And so low-cost access to space is a major part of any 
sort of an element of future space exploration.
    Another good example is, NASA has begun a look at nuclear 
propulsion and power, Project Prometheus, that is in the Fiscal 
Year 2004 budget proposal. That is a capability that is 
critical to both human and robotic probes. That is a capability 
that will allow us to go places in the solar system we just 
can't go with chemical rockets. And that's a capability that 
can be built for a number of applications, and then when we 
decide and make a decision about where to go, we can apply 
those capabilities to those missions.
    Now, there is somewhat of a danger in establishing a single 
destination for the program. Obviously, that gives you the 
ability to rally behind that destination, and there's a lot of 
very attractive reasons to do that, and that's probably the 
direction most people think of today is saying let's go back to 
a single place. But if you apply all of your resources and all 
of your technology behind a single destination and you either 
never get that mission going or it has a failure en route, 
you're left with nothing in the inventory for you to do next. 
So that's why there's a rationale and a growing sense, even at 
NASA by Administrator O'Keefe, that we need to build 
capabilities to do a number of missions, and then as those 
missions come about, assemble those capabilities into the 
spacecraft that can achieve that mission.
    Senator Brownback. In my discussions with the Administrator 
and with other people that have thought about the space 
program, a number of them will identify that we will need to 
build the capacity to travel in space and that's what our 
objective should be. We need to build the capacity that we 
could get to and from Mars in a relative period of time so that 
humans could take it, and have the capacity to do it. We don't 
necessarily need to say right now that our objective is to go 
back to the moon or to Mars, but we need to be able to build 
the capacity. We'd probably test that technology and use it 
through the unmanned to build up the capacity where we could do 
it in a manned capacity. But our objective isn't to go to the 
moon or to Mars. It's to open up space for human exploration 
for humanity, how do you react to that?
    Dr. Roland. It seems to me that there is a tendency to 
associate our current space age with the age of Columbus, and I 
think it's the wrong analogy. We're in the age of Leif 
Ericsson. We have managed to get to the moon, but we don't have 
a robust technology and a robust infrastructure which will 
allow us to stay there and exploit and create a permanent 
presence there. Our effort ought to be invested in developing 
that capability and infrastructure, not in trying to 
demonstrate that we can do a technological feat.
    I think it was very important, in the context of the Cold 
War, to send humans to the moon as a demonstration of our 
technological prowess. But I don't think we have to prove 
anything anymore. I think we have to have a rational space 
program that builds up the infrastructure that will allow us to 
do all of these things in space, and we're not doing it now. 
We're spending our money flying astronauts around and not 
developing the launch vehicles we need for the future.
    Ms. Smith. Mr. Chairman, I can't resist bringing to your 
attention a study that was done in 1985 to 1986, with which I 
was associated, from the National Commission on Space, called 
``Pioneering the Space Frontier.'' And the overarching theme of 
that report was that we should open up the solar system for 
science, exploration, and development. And the space 
transportation system laid out in there, which was called the 
Bridge Between Worlds, was, in fact, a series of spacecraft 
that went on interlocking orbits so that you could access Mars 
and the areas around Mars basically anytime you wanted to.
    So there are folks who have thought about these things for 
a lot of years. The problem has always been money. They're very 
expensive to do, and the Nation has other priorities.
    And what many people who are proponents of human space 
flight have been searching for has been that catalyzing effect 
that would make it imperative for America, or for planet Earth, 
to go out there and do it again. We had that compelling reason 
to go to the moon. And, as Dr. Roland said, it's hard to find 
that compelling reason to send humans to Mars because of the 
expense involved in it.
    So I think on various bookshelves around town and around 
the country you'd find a lot of studies that came out with 
ideas of how you could accomplish this.
    One of the concerns of the Commission on Space was that 
they didn't want to do another Apollo program, which was a 
dead-ended program. You went there, you picked up a rock, you 
came home, and it was done with. They wanted to establish that 
infrastructure so that you could go, not once, but repeatedly, 
over and over again, that you had that infrastructure in place. 
The problem has always been the funding for it.
    Senator Brownback. You're talking about a catalyzing event. 
Are we coming upon one if the Chinese launch into space? We've 
had testimony in this Committee that they will shortly 
thereafter announce that they are going to the moon and to 
stay.
    Dr. Roland. I can remember debating with former NASA 
Administrator Dan Goldin, who was making the same argument ten 
years ago, threatening that if we gave up our lead in human 
exploitation of space, the Japanese were going to move ahead of 
us and that they had a manned space program.
    It is a bad way to make our national policy to think that 
these symbolic programs are the best way to proceed into the 
future. We have 40 years of experience in space now. We really 
know what works and doesn't work, and we don't have to put on 
demonstration programs to prove we're better than other people. 
We just have to develop a rational program that will achieve 
our goals.
    My historical explanation for why we're in this dilemma now 
is what I call ``the barnstorming era'' of space flight. We are 
now in the era of space flight which is analogous to 
barnstorming in the 1920s. We've learned how to fly, but we 
didn't have any idea what to do with the capability. So we 
would go out to the annual picnic and take Aunt Emma up for a 
trip. Right now we are just showing off in space that we know 
how to fly. It was in the 1930s, when the airplane turned into 
a commercially useful tool and a militarily useful tool. Then 
it started to develop its own technological trajectory. We 
don't have such a trajectory now for manned spaceflight.
    Senator Brownback. But would we, Dr. Roland--if we, though, 
continued to go out for the Aunt Emma picnic----
    Dr. Roland. Right, uh-huh.
    Senator Brownback.--and watch the launch and come back----
    Dr. Roland. Right.
    Senator Brownback.--won't we learn as we go along? Then 
we'll be able to get to a point that we find, a very good 
logistical, military, commercial reasons for us to be up on the 
moon on a permanent basis. If we're up there knocking around 
and exploring, will we find things that we hadn't thought of 
previously? Isn't that actually even the truth of most of human 
discovery? Is you go not because you particularly know why 
you're going, or what you're going to get, but once you get 
there, you find out that what you come back with, the reasoning 
is far different, but very important?
    Dr. Roland. Senator, I agree completely, and we've been 
doing this for 40 years, and we've found out what works: 
unmanned communications satellites, unmanned reconnaissance 
satellites, earth resources satellites, scientific probes. We 
have a whole repertoire of space activity that works and is of 
proven productivity and usefulness. It hasn't happened with 
people yet.
    Now, I'm not saying that we should stop sending people, but 
we haven't had that catalytic event where people have 
demonstrated that they're indispensable to some very useful 
activity in space. I think one of the reasons is that we don't 
have the right infrastructure.
    If we could put people in space for free, there would be 
lots of things for them to do up there which would be worth the 
cost. If it costs a billion dollars to put them in space, there 
aren't very many things up there that are worth the cost.
    And, with all due respect to Marcia, I would maintain that 
$1 billion is a much better estimate of what a Shuttle flight 
really costs, including the total overhead. I can give you a 
citation on that. And that's $1 billion a flight if you don't 
include amortization of the development costs.
    When NASA proposed the Shuttle, it said it was going to be 
so cheap that it was going to amortize its development costs in 
the first 12 years. Of course, it never did. So you should, 
actually, be putting amortization of development costs into the 
cost of a Shuttle flight. And if you do that, the number is 
$1.7 billion a flight. But I think $1 billion is a good rough 
figure for what it's really costing.
    So it's a very expensive proposition to be putting people 
up there. As a matter of fact, the space telescope is my 
favorite example. It's used as an exemplar of how useful manned 
space flight is. Well, we could have had two or three space 
telescopes for the price of the program we have, because we're 
spending all that money every time we go up to repair it. We'd 
be much better off having several automated space telescopes. 
They'd be in a more useful orbit, they'd be of a more practical 
design, and we wouldn't be tied down to the Shuttle as we are 
now.
    Senator Brownback. Some observers have suggested that NASA 
should explore developing a replacement for the Space Shuttle 
instead of trying to extend the existing program and 
complementing it with an orbital space plane. What are the 
challenges to this approach? And do you support going that way?
    Mr. Chase?
    Mr. Chase. I believe that the Shuttle has inherent 
capabilities that need to be maintained to complete the Space 
Station, first and foremost. The remaining components of the 
Space Station are in--most of them are at the Kennedy Space 
Center in Florida waiting for launch, and those can only be 
launched on the Space Shuttle. You can argue that that was a 
design flaw, that we should have allowed those components to be 
flown in other systems, but the bottom line is if we intend to 
complete the Space Station, we have to have the Shuttle to do 
that. And there are a lot of things that have been neglected in 
the investments that need to be made in the Shuttle 
infrastructure, both the vehicles themselves and the 
infrastructure at the Kennedy Space Center and other NASA 
centers that support the Shuttle.
    And that's been done to some degree, because there's been a 
sense of an either/or proposition, that if you're going to fund 
the Shuttle, you can't do next-generation launch investment; or 
if you're going to do next-generation launch investment, you 
have to starve the Shuttle. And that is not the case. You can 
do both.
    And, in fact, there are a lot of ways to integrate the 
Shuttle program into next-generation systems and research. For 
example, the Shuttle can be used as a test bed for some of the 
new technologies that are being looked at for next-generation 
systems.
    So I think you have to have a period where you're flying 
the Shuttle, you're also flying an orbital space plane, which 
is kept as simple as possible, to do the crew transfer, and 
then you're also doing investment in the next-generation 
systems.
    The key is I believe that NASA has matured its thinking of 
the point to know that we do have to have that balanced 
parallel approach, rather than simply embarking on a single 
replacement system and then when that fails we not only have 
not upgraded the Shuttle, but we don't have a replacement 
system to replace it.
    Going back, as well, to the exploration discussion, I think 
that there has been a maturing of the thinking that we can't 
have a mission simply to go there, that we have to have to 
build the infrastructure and build the capability that lets us 
do missions long-term, not just a flags and footprint type 
program, which is what a lot of people describe Apollo as 
being.
    So I think we have a phased approach that involves multiple 
systems being brought online.
    Senator Brownback. We've been joined by a person with 
personal experience, Mr. Nelson, Senator Nelson of Florida. The 
floor is yours to ask questions.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Dr. Roland, I did not see you, because I was looking 
straight at a TV camera. Were you the Dr. Roland that was on a 
CBS program with me?
    Dr. Roland. Yes, sir.
    Senator Nelson. I guess I don't remember--2 months ago, or 
so.
    Dr. Roland. Yes, something like that. That's right.
    Senator Nelson. You made a statement, and I heard it 
through my earpiece, that the Rogers Commission had recommended 
that the Space Shuttle be terminated.
    Dr. Roland. I believe what I said--what I meant to say and 
what I said in my prepared testimony here--was that the Rogers 
Commission said, ``Do not make the Shuttle the mainstay of your 
launch capability.'' In other words, they were encouraging 
NASA, not to stop flying, but to get on with developing a 
stable of launch vehicles where you could choose the vehicle 
best adapted for any particular mission.
    Senator Nelson. And that was clearly the conclusion as a 
result of the Challenger tragedy----
    Dr. Roland. Yes, sir.
    Senator Nelson.--17 years ago, was that instead of the 
Space Shuttle being the space transportation system which it 
was thought to be, that you would use the Space Shuttle 
primarily where you needed the human in the loop, and you would 
use expendable rockets to put up other payloads that you did 
not need the human in the loop. That was the final result.
    Dr. Roland. I went back and looked at the Rogers Commission 
report, last night, in fact, and that isn't exactly what they 
said. They took their charge very seriously, and it was only to 
advise NASA on what to do about the Shuttle program. So they 
were very cautious about what this other stable of launch 
vehicles should be. I am quite sure that in their press 
discussions surrounding the release of the report, they did say 
that they thought there should be another stable of launch 
vehicles. And I don't think they limited manned space flight to 
the Shuttle. I think they were anticipating a follow-on manned 
launch vehicle.
    Senator Nelson. And 17 years later, here we are.
    Dr. Roland. Here we are, that's right. Yes, sir.
    Senator Nelson. And we don't have one.
    Dr. Roland. Yes, sir.
    Senator Nelson. I would hope that we would accelerate those 
technologies, and I've been kind of nipping at the heels of the 
Administration to try to get them to do that and not to look to 
NASA as the sole source of the funding for developing new 
technologies since, in fact, other agencies clearly have an 
interest in this, as well.
    Dr. Roland. I agree completely.
    Senator Nelson. Other agencies, I might say, that are a lot 
more flush with cash than is NASA.
    Dr. Roland. Yes, sir.
    Senator Nelson. Well, as you look from the experience of 
what we learned 17 years ago and some of the mistakes--now, Mr. 
Chairman, you might want to rein me in, because I might be 
getting far afield. You're talking basically about the future 
of manned space flight, so I will ask questions that are 
directly related to that--NASA learned a number of lessons--and 
I would address this to each of the three--17 years ago, NASA 
learned a number of lessons, and it wasn't only about cold 
weather stiffening rubberized gaskets, but it was also about 
mistakes in human communication, where communication is like 
water; it's really easy to flow from the top down, but it's not 
necessarily as easy to flow from the bottom up. Do you think 
that NASA learned those lessons and practiced those learned 
lessons on into this experience?
    Dr. Roland. I think they learned them and then forgot them 
again. I think the Columbia accident was very similar to the 
Challenger accident in the sense that it was a systemic flaw 
within the system. It was a stressed system in which the 
operators were proceeding with inadequate resources for what 
they were trying to do. They performed heroically, but they had 
more problems in the system than they had resources to fix, and 
that meant looking the other way when a lot of problems arose. 
And when problems arose, stick your head in the sand and hope 
for the best. That's what happened on Challenger, and that's 
what happened on Columbia.
    Senator Nelson. What do you think, Ms. Smith?
    Ms. Smith. Well, I don't mean to put you off, Senator, but 
I think that until the Columbia Accident Investigation Board 
determines exactly what went wrong, we aren't going to know the 
answer to that question.
    Senator Nelson. Mr. Chase?
    Mr. Chase. I have to agree with Marcia that we won't know 
the answers until the investigation is finished. I can 
certainly offer some preliminary assessments that I believe to 
be the case.
    I've had the privilege of working at the Johnson Space 
Center, I've worked for a NASA contractor, I've lived in the 
community around Kennedy Space Center, and so I've observed 
NASA from a variety of angles, both from within the agency and 
outside.
    I think with Challenger, and certainly as your experience 
with the agency would probably concur, there were a series of 
severe endemic problems within the agency that resulted in the 
Challenger disaster. There was a problem of suppression of 
information from the top, an active suppression of information.
    I think in Columbia, to date, we have not seen that there 
has been an active suppression of the information. You can 
debate whether or not certain pieces of information were 
elevated properly from within management and engineering, it 
seems, but I have not seen evidence, to date, that indicates 
that there was an active effort to squelch that discussion.
    The what-if-ing scenarios of what happens to a vehicle and 
what happens to systems goes on on every single mission. I had 
the opportunity to work console for three different Shuttle 
missions while I worked for the Space Station Program, and 
that's part of what you do, is you understand the details of 
what happens to that vehicle and what happens to those systems, 
and you go the absolute worst-case scenarios, and you talk 
about those. It just happens that e-mail now puts that down on 
paper, and some of that is now transmitted and can be taken out 
context.
    So I think that's a difference in those two areas. I'm sure 
that we'll find areas that need to be improved, and those 
improvements certainly need to be made. But I think that is a 
very dramatic difference between the two incidents.
    Senator Nelson. The question of photographs, Ms. Smith, 
what do you think? Looks like NASA is going to be taking 
photographs, if such an occurrence should occur in the future. 
What do you think about whether or not they should have taken 
photographs this time?
    Ms. Smith. Well, again, Senator, not to put you off, but I 
don't think CRS would take a position one way or the other. I 
think NASA has explained itself. It said that it had gotten 
photographs in the past and had not found them particularly 
helpful in trying to determine whether or not there had been 
missing tiles on previous flights, and so they felt that they 
would not be particularly helpful in this case. So they've 
explained why they chose not do that, and it would be up to 
Admiral Gehman and his team to decide whether or not that was a 
good management choice.
    Senator Nelson. So you don't have a personal opinion about 
that?
    Ms. Smith. No, sir.
    Senator Nelson. Go ahead, Mr. Chairman. I've got several 
other questions, but----
    Senator Brownback. I've had my chance. I was just getting 
ready to close the panel down when you came in.
    Senator Nelson. Do you have another panel coming?
    Senator Brownback. No, this is it. So if you have another 
couple of questions, go ahead and ask them and then we'll 
finish up.
    Senator Nelson. May I have more than a couple?
    [Laughter.]
    Senator Brownback. All right. We may bounce back and forth 
a little bit here. I may give you the gavel and go on. Go 
ahead.
    Senator Nelson. I'd love that, Mr. Chairman.
    [Laughter.]
    Senator Nelson. The last time I had the gavel in this 
Subcommittee, we went for 5 hours.
    [Laughter.]
    Senator Brownback. Oh, well, I couldn't handle that.
    Senator Nelson. As we look at some of the things that are 
happening, do you have any technical suggestions for this 
Committee about buying some more time if you've got a damaged 
area of an orbiter and you want to buy some more time--I'm not 
suggesting there was anything that could be done to save this 
particular mission and crew--such as cold soaking or a higher 
angle of attack or keeping the crew in space longer to rescue 
them--if you're damaged area is your left wing, keeping your 
left wing up instead of the roll reversal taking it back into a 
left wing down? Any suggestions?
    Dr. Roland. Senator, I don't have the technical competence 
to answer that specifically, but I do have a suggestion that I 
think's in the same realm. I think in the future, until we 
either have a clearer idea and clearer prospects of a new and 
safer Shuttle, that all Shuttle missions in the future should 
go to the Space Station and should involve an inspection of the 
Shuttle before it returns.
    And, additionally, we might want to consider--we've been 
speaking earlier about developing a small astronaut orbiter 
which would be only to transport people to and from orbit--we 
might want to consider using the Shuttle unmanned as a heavy-
lift vehicle. It can fly up and it can fly back without the 
astronauts onboard. This would not hold down the costs, but it 
surely holds down the risk to human life of a technology that I 
think is becoming more fragile as time goes on.
    Senator Nelson. Any other comments?
    Mr. Chase. No, I don't have the technical background or the 
currency with the programs to make the recommendations.
    Senator Nelson. The future of human space flight. Where, in 
your opinions, would you like to see us go as we get back into 
flying with the Space Shuttle? What would you like to see the 
program evolve into?
    Mr. Chase. Senator, one of the discussions that we've been 
having is this notion of a destination-driven program versus 
building capabilities that let us go multiple destinations, and 
I think that's a very good debate to have. I'm not sure that 
that debate has been decided, but clearly NASA is moving 
towards this notion of building capabilities to do a number of 
things. Rather than simply building a vehicle that goes to Mars 
or just goes to the moon, why not build capabilities that let 
us do a number of things in space that can be applied to 
robotic missions, to human missions, and anything else that we 
may want to do.
    One of the recommendations put forward in the Commission on 
the Future of the Aerospace Industry, chaired by Congressman 
Robert Walker, was just that notion, that you need to develop 
the capabilities to do a number of missions. And, in a lot of 
ways, that's more exciting, to understand that you have the 
capability through developing nuclear propulsion and power 
options for in-space transportation, but you can then take that 
and apply it to a number of missions, to send a robotic probe 
to Europa, to send a human mission to Mars. That, I think, 
opens up your possibilities. You have some challenges in 
perhaps how you motivate that team that develops the systems, 
because they may not know exactly what they're driving towards. 
But it does open up your possibilities, and that's where I 
think we should go.
    The most important element in all of that is the access to 
space. Getting low-cost access to space is critical. The 
capabilities of the Shuttle are critical for the short- and 
near-term. Then as you develop and phase in the next-generation 
systems, that's what enables you to drop the costs. And I was 
encouraged by your comments earlier and your comments in the 
past related to the role that the Department of Defense can 
play in future space access, both in developing next-generation 
RLVs and perhaps how the fleet of the evolved expendable launch 
vehicles, EELVs, can play in our space transportation needs. 
Those are very robust and very new systems that are much 
simpler, much more efficient than their predecessors. I think 
there's a major role for them to play in future access.
    Ms. Smith. Well, Senator, I'm not allowed to take positions 
or have opinions, so about all I can offer in this context is 
that it----
    Senator Nelson. But you're one of the great experts on 
space.
    [Laughter.]
    Ms. Smith. But it may be useful to have the context set for 
where it is that NASA and America expect to go in the long-term 
in human exploration. Most of NASA's programs have this long-
term view. The planetary program does, the astronomy program 
does. But when you get to human space flight, the Space Station 
is basically it. Because it's taken so many more years than 
people expected for it to become operational, and it's still 
not there yet, people have sort of given up looking at what is 
beyond space station. In fact, NASA, I don't think even has a 
cutoff for when the Space Station is going to stop operations 
or transition to something else.
    And so in terms of trying to develop an architecture for 
the future and decide what your options are and what kind of 
launch vehicles you need and whether you want to have one 
vehicle for human space flight and another vehicle for cargo, 
you really need to know where it is down the road all of this 
is going to be taking you.
    And I know that there are a few people at NASA who have 
been looking at this over these past few years, but because of 
the funding situation at NASA, I think there aren't a lot of 
people there who feel that they can stand up and say, ``Oh, 
yeah, this is the way it's going to be.'' And so I think that, 
you know, even after all these years and after all the studies 
that have been done on future space goals, that here we are in 
2003 and it's still not clear what direction this is all 
leading in. And I think that's an important component of then 
backtracking and saying, ``So what kind of launch vehicles do I 
need?''
    Dr. Roland. I don't think, with our current technology, 
there are any missions for people in space that are worth the 
cost and the risk, but that does not mean that there's not a 
value for human missions in space--conceivably on a space 
station, conceivably going to the moon, going to Mars. And the 
question is, when will the cost come down enough that the value 
of having people there, which is now so much more expensive, 
intersects with that cost? I think the space program should be 
focused on making that happen sooner rather than later, and 
that means launch vehicle development. I think Mr. Chase and I 
agree that access to space is the big issue, and that's where 
we should be concentrating our research and development.
    Senator Nelson. Mr. Chairman, I'll conclude my comments 
just by responding to Dr. Roland.
    In one sense, I agree with you, and that is that the risks 
for human space flight are not accurately projected. Indeed, in 
a flight that I participated in 17 years ago, at the time it 
was generally thought to be catastrophic one in 100. It ended 
up being one in 25. And now we know, it's two in 113. And 
that's why I have been unrelenting in my advocacy for the 
safety upgrades on the Space Shuttle and have been unforgiving, 
Mr. Chairman, to a NASA that has not pressed with those safety 
upgrades as a first priority of business; instead, stealing 
money from the Space Shuttle, which would have gone into safety 
upgrades and other things, and putting it in other things in 
NASA. So in that regard, I think you're right.
    Where I would disagree with you--and this is my concluding 
comment, Mr. Chairman, because I know you want to shut down--
and that is that Americans are, by nature, explorers. We're 
about to celebrate the 200th anniversary of Lewis and Clark. 
And that was a big deal in the day. That was like an Apollo 
project in their day. And that reaped enormous benefits for us. 
And I think that we need, as a country, not only the 
development of the technologies and all of those spinoffs to 
the value of our society here on the planet, but fulfilling 
that part of our nature as explorers.
    For example, one of my crew mates, Dr. Franklin Chang Diaz, 
has been developing over the last 30 years a plasma rocket that 
he's just about ready to test if NASA will keep giving him the 
money. He's got a 30-university consortium, he's got a test 
model, and this thing would ultimately take us to Mars in 39 
days instead of 10 months, which is conventional technology, 
would solve the problem of gravity, because it would accelerate 
half the way and decelerate the remaining half way, and would 
create a magnetic field around the rocket, which would help us 
repel the solar flares.
    And so these are the kind of things that I think we've got 
to be visionary in. And I'm so grateful to you, Mr. Chairman, 
because you are a visionary, and I'm glad that you're the 
Chairman of this Committee.
    Senator Brownback. Thank you very much, Senator Nelson, 
Astronaut Nelson.
    I want to thank the panelists, as well. This is the start 
of a lengthy process. It's been going on for some period of 
time. But we do want to fulfill the dreams of us as explorers, 
and I don't think anybody on the panel disagrees with that. 
It's just how we do that and how we proceed forward.
    I want to thank all of you, individually, for your 
expertise and your continued support and enthusiasm for how 
America proceeds forward into space.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
